<html>
<title> - CANADA LYNX INTERAGENCY NATIONAL SURVEY AND ENDANGERED SPECIES DATA COLLECTION</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 CANADA LYNX INTERAGENCY NATIONAL SURVEY AND ENDANGERED SPECIES DATA 
                              COLLECTION
=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 6, 2002

                               __________

                           Serial No. 107-89

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov





                       U. S. GOVERNMENT PRINTING OFFICE
78-8011                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                









                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 6, 2002....................................     1

Statement of Members:
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, Prepared statement of.................    26
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     2
    Hastings, Hon. Richard Doc, a Representative in Congress from 
      the State of Washington....................................     4
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     3
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     6
        Prepared statement of....................................     8

Statement of Witnesses:
    Franklin, Thomas M., Wildlife Policy Director, The Wildlife 
      Society....................................................    68
        Prepared statement of....................................    69
    Malfi, Ronald, Acting Managing Director, Office of Special 
      Investigations, U.S. General Accounting Office.............    10
        Prepared statement of....................................    12
    McKelvey, Kevin S., Ph.D., Research Scientist, Rocky Mountain 
      Research Station, Forest Service, U.S. Department of 
      Agriculture................................................    61
        Prepared statement of....................................    62
    Mills, L. Scott, Ph.D., Wildlife Biology Program, School of 
      Forestry, University of Montana............................    53
        Prepared statement of....................................    54
    Rey, Hon. Mark, Under Secretary, Natural Resources and 
      Environment, U.S. Department of Agriculture................    34
        Prepared statement of....................................    34
    Thompson, Tom L., Deputy Chief, National Forest System.......    35
        Prepared statement of....................................    37
    Williams, Steven A., Director, Fish and Wildlife Service, 
      U.S. Department of the Interior............................    40
        Prepared statement of....................................    42


   OVERSIGHT HEARING ON CANADA LYNX INTERAGENCY NATIONAL SURVEY AND 
                   ENDANGERED SPECIES DATA COLLECTION

                              ----------                              


                        Wednesday, March 6, 2002

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 10 a.m., in room 
1324, Longworth House Office Building, Hon. James V. Hansen 
(Chairman of the Committee) presiding.
    The Chairman. The Committee will come to order. We are 
having a wee bit of a problem this morning, in that there is 
two important conferences going on, one with the Republicans 
and of course one with the Democrats, and because of that a lot 
of our guys are going to be late. If it is all right with the 
Committee, I think we are just going to wait for about 5 
minutes and then we will start this hearing. Is there any 
objection?
    Hearing none, that is what we are going to do. So if you 
want to go back and chatter for 5 more minutes, have at it, and 
we will be right back to you. But I did want to point out to 
you what we are doing. Second, we always like to start on time. 
We do appreciate our witnesses being here, and the many people 
that have had to come a long way to be part of this hearing 
today.
    That said, we will, as they say in some areas, we will 
``saunter'' for a while. But I would like to make one unanimous 
consent request. I ask unanimous consent that the gentleman 
from Washington, Doc Hastings, be allowed to sit on the dais 
and participate in the hearing. Is there objection?
    Hearing none, so ordered. Doc is actually an ex officio 
member of this Committee anyway, and is on a leave of absence 
because of sitting on the Rules Committee, and anyone who is 
going to sit on the Rules Committee gets all the deference we 
can possibly handle. These guys have to meet at 2:00 in the 
morning when the rest of us go home, and Doc, we appreciate 
your perseverance. I wouldn't go on that Committee for all the 
tea in China.
    But anyway, that said, we will wait for 5 minutes and then 
we will start.
    [Recess.]

  STATEMENT OF THE HON. JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    The Chairman. The Committee will come to order. We 
appreciate all of you being here with us at this time, and 
possibly more people will show up. It is a very difficult day 
for many of us.
    Our hearing today is about the Canadian lynx, and I was 
very troubled this past December when I was informed that 
several Federal and State employees involved in the Canadian 
Lynx Interagency National Survey had submitted at least five 
unauthorized samples of lynx hair to the laboratory. Chairman 
McInnis and I requested that the Inspector General and the 
General Accounting Office (GAO) investigate these allegations. 
Today's hearing will focus on the result of these inquiries.
    I would first like to thank the Inspectors General from 
both the Department of Interior and the Department of 
Agriculture for acting so quickly in response to our letter. I 
would also like to thank the GAO for their timely report, and 
look forward to discussing the reports with all three agencies 
today in this hearing.
    We will attempt to answer some of the many questions that 
have been raised by concerned citizens, members of this 
Committee, and the scientific community. Did the actions of 
these seven individuals adversely affect the National Lynx 
Survey? How was this allowed to happen? What, if any, 
safeguards and checks and balances do these two agencies have 
in place now to keep this from happening again? Most 
importantly, what else has occurred that we do not know about 
yet?
    While I served as Chairman of the Ethics Committee, my 
belief in integrity and personal accountability were reinforced 
daily. Public officials in any capacity, including employees of 
Federal and State agencies, should be held to the highest 
standards of moral and ethical conduct. We have the mantle of 
the public trust on our shoulders, and we must act accordingly. 
When we breach this trust, we must be willing not only to 
accept what we have done but also to pay the consequences of 
our actions.
    In the issue before us today, this has not happened. In 
fact, while involved Forest Service employees received 
counseling, Fish and Wildlife Service scientists that submitted 
unauthorized samples actually received merit pay raises for 
their work on the lynx study. These seven scientists acted in 
direct violation of peer review agency protocol. Their actions 
were more than mere reflections of bad judgment.
    Each of these individuals involved blatantly disregarded to 
the rules that governed the survey. In doing so, besides being 
unprofessional and unethical, they put the credibility of the 
entire survey on the line, and if we had not been notified and 
intervened, could have affected the management decisions in 15 
States and 57 national forests.
    Many of us have heard these types of allegations before. 
This situation was brought to light by a retiring Forest 
Service employee on his last day of work. I really wonder how 
many similar incidents have occurred without our knowledge. How 
many management decisions have been affected by results that 
were tainted by breaches of protocol?
    Some of these scientists stated that they were only testing 
the system by submitting unauthorized control samples, making 
sure that the lynx hair could be identified. If this is true, 
it shows a fundamental mistrust that these scientists have for 
the very science they are using. This is troubling to this 
Committee, and we have oversight over these issues.
    We need to make sure that this type of incident does not 
happen again. Poor decisions and bad judgment cannot be the 
basis for the management policy of our public lands. The 
agencies involved must institute checks and balances from 
within. Most importantly, all management decisions must be 
based on sound science.
    I hope that many of our questions and concerns may be 
answered today, and I will look forward to discussion.
    Mr. Inslee, are you the spokesman for the minority?
    Mr. Inslee. We are that far down the totem pole, Mr. Chair, 
I believe.
    The Chairman. Well, we will turn to you if you have an 
opening statement for us, and then we will turn to Chairman 
Scott McInnis.

STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF WASHINGTON

    Mr. Inslee. I do. I appreciate that, Mr. Chair, as always, 
and appreciate the opportunity to have a few comments.
    There has been a lot made about this instance, and perhaps 
it is not surprising, and perhaps it is not surprising, too, 
that there have been a lot of allegations made about this 
incident before the facts are known. So I think it is a good 
opportunity for us to really find out what did happen and what 
did not happen in this case, so I welcome this opportunity to 
have this hearing.
    And I am not here, and I don't think anyone in this room is 
here to defend the actions of the biologists who submitted 
false hair samples, and I don't think anyone in this room will 
take issue with the suggestion that this is not a good way for 
science to be conducted. If nothing else, it allows people to 
create issues where we shouldn't have issues, and so it 
certainly is regrettable.
    But what I do take issue with is any suggestion that this 
is somehow just the tip of the iceberg, that Federal scientists 
try to skew surveys on a regular basis with bad science, or 
that this case signals a need for dramatic reforms to the 
Endangered Species Act. With any of those suggestions, I very 
strongly disagree.
    What we will find today, I think, is that neither the 
General Accounting Office nor the Interior Inspector General 
found any evidence that this is a common occurrence, none, and 
that all science that has been used in protecting endangered 
species is somehow suspect. We just simply aren't going to find 
evidence of that outside of this incident.
    In addition, both Dr. Scott Mills and Mr. Tom Franklin will 
tell us in no uncertain terms that wildlife biologists 
nationwide, including Federal biologists, live by a code of 
ethics and standards for professional conduct that they take 
seriously. Indeed, in this instance, in this instance, although 
it is clear that the judgments were flawed by these biologists, 
of taking these steps without having a well-established 
protocol for testing the lab, I think it will be very clear 
that in fact the motivations of these biologists were to test 
the accuracy of the lab because they were concerned that there 
were inappropriate findings that there had been lynx where in 
fact no lynx had existed.
    So I think it is very interesting that the sort of 
political spectrum on this perhaps has misjudged this, that in 
fact the biologists acted of a motivation on the other side of 
the coin, trying to assure that we didn't get false positives 
on these lynx findings. Nonetheless, they were human and 
mistakes were made. There is no question about that.
    But from today's hearing I think that there is no evidence 
that bad science is being used in the lynx survey to guide 
management decisions. Dr. Mills will testify that the data 
being produced by their lab for the lynx survey is sound, and 
should not be discounted as some have suggested. In fact, their 
survey contains so many controls and follow-up procedures that 
he and Kevin McKelvey have said ``The probability of producing 
false positives is extremely low, and the probability that 
false positive results will trigger conservation responses is 
nonexistent.''
    In conclusion, there is no question that data falsification 
is a serious matter, regardless of whether we are talking about 
protection of the lynx, or the numbers of caribou calving in 
the Arctic National Wildlife Refuge. It is not common practice, 
however, and given that, I do not see this unfortunate incident 
as justification for amendments to the ESA under the guise of 
good science. Instead, it demonstrated that the system is 
already in place to weed out bad science before it is used in 
land management decisions.
    And just one comment, too, in general. I do wonder why this 
incident warranted four different investigations, while we 
haven't had a similar focus on illegal logging of Ponderosa 
pines in the Bitterroot, or the fact that the Fish and Wildlife 
Service had to be sued three times before it actually listed 
the lynx, or the fact that the Forest Service in the Pacific 
Northwest violated environmental law after environmental law 
after environmental law until the courts of this land finally 
enforced the law.
    And I think it would be helpful to our country if our 
Committee generated as much concern and outrage about the 
repeated, consistent, time over and over again that Federal 
agencies have failed to enforce known environmental laws, as 
they do about this incident. And thank you, Mr. Chair.
    The Chairman. I thank the gentleman from Washington.
    We are pleased to have with us a past member of the 
Committee and an ex officio member of the Committee, who will 
probably join us again when they kick him off the Rules 
Committee. Great to have Doc Hastings with us, and we will turn 
to him for an opening statement.

STATEMENT OF THE HON. RICHARD DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman. I want to thank you 
for your reference to my keeping my seniority on this 
Committee, and also for making reference to the fact that I am 
on the Rules Committee, because later on this morning we will 
be doing a rule on legislation from this Committee, so I 
appreciate your keeping that in mind.
    Mr. Chairman, time and time again Westerners and rural 
Americans have been forced to shoulder the burden of land 
policies based on questionable science. Unfortunately, today's 
hearing isn't even about questionable science; it is about an 
allegation of outright fraud.
    The scandal involving the actions of the seven Forest 
Service and U.S. Fish and Wildlife Service employees studying 
the Canadian lynx in north central Washington illustrates the 
sad fact that amid claims of scientific integrity in Federal 
agencies, reliable evidence and sound scientific practices are 
at times abandoned for the personal agendas of agency 
personnel. This scandal shows a notable absence of checks to 
ensure that only sound science shapes policy, and it brings to 
light the ease by which Federal agencies can make decisions 
based on assumptions rather than hard scientific evidence.
    It is no surprise that the trust central Washington's 
communities have for Federal agencies and their employees has 
been steadily eroding for many years. Considering that the 
Wenatchee and the Gifford Pinchot National Forests are 
literally in the backyards of many whom I represent, it is no 
surprise that this trust has just taken a dramatic turn for the 
worst. Let me give you just two examples in that regard.
    A decade after the designation of the spotted owl habitat 
in that area that resulted in the end of harvesting for many of 
the forest lands in Washington, we have come to learn that much 
about the species is still unknown, including what habitat it 
prefers. Unfortunately, the decision to seal off massive tracts 
of valuable land that devastated nearby communities and cost 
thousands of jobs, nevertheless that happened and we are still 
feeling that. It appeared that the agencies acted on 
environmentalists' claims and demands before sound science 
could be considered.
    And last summer irrigation water was shut off to farmers 
because Federal biologists assumed that a certain amount of 
water must remain in flow for fish. After this policy was 
enacted, the National Academy of Science issued a report 
declaring that there was not sufficient scientific evidence to 
support the Federal denial of water in the Klamath Basin.
    The story of the lynx differs only slightly from these past 
experiences, but in a very significant way. In the case of the 
spotted owl, biologists are still debating over the best 
habitat years after the policy has shut down the forest. In the 
Klamath Basin, deficient science was discovered months after 
entire crops were lost due to a lack of water. In the case of 
the lynx, however, we learned immediately that fraudulent 
science had the potential--had the potential--to shape land use 
policy.
    In my mind and the minds of many Westerners, many issues 
remain unknown in this example. For example, just how involved 
were the Forest Service and the U.S. Fish and Wildlife? Why, 
according to the IG, were the offending employees given bonuses 
before the scandal was exposed? Were the biologists willingly 
pursuing the expansion of lynx habitat in these national 
forests?
    The GAO has now concluded its report, and I am hopeful 
today's hearings will get to the bottom of these questions. 
What is abundantly clear to the residents of central Washington 
and communities around the West is that the land use policies 
are too often void of sound science.
    Judging from experience, it is clear that the void is far 
deeper than a handful of biologists in a lynx survey. And it is 
also clear that when Federal agencies carry out the Endangered 
Species Act, the line between scientific evidence, assumptions, 
and personal agendas blurs. This is totally unacceptable to me.
    We have been told by the agencies that submitting fake hair 
caused no negative effect to the lynx survey? How can we be 
sure that this sort of deception is not systemic within the 
agencies? Federal agencies must not be allowed to hide breaches 
in science to be sorted out later, upon discovery.
    The Forest Service and U.S. Fish and Wildlife make their 
land use policies in order to enforce the law, the Endangered 
Species Act. If you have witnessed the devastation of these 
policies, that these policies can have on entire communities, 
in the affected communities, then you realize the power of the 
law.
    Enforcement cannot continue to be based on assumptions 
masquerading as scientific fact, nor should there be any room 
for ideological agendas. Every decision must be based on 
irrefutable hard evidence and sound science. When sound science 
is pushed aside because it is inconvenient or because employees 
want to pursue personal agendas, there must be consequences, 
because there certainly are consequences for the communities 
that are forced to bear the brunt of these decisions. Once 
again, Mr. Chairman, thank you very much for your courtesy in 
allowing me to join you today.
    The Chairman. I thank the gentleman from Washington.
    Now I would like to turn to the Chairman of the 
Subcommittee on Forests and Forest Health, Mr. Scott McInnis.

   STATEMENT OF THE HON. SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. Thank you, Mr. Chairman.
    Mr. Chairman, let me begin my remarks by saying at the very 
onset that there is well-established protocol for the testing 
of the lab, and it is clearly outside the authority of field 
offices to be testing the laboratory. Any remarks in regards to 
a so-called excuse of testing the lab is nothing short of a 
cover for wrongdoing.
    Today our Committee will take a much-needed look at the 
National Lynx Survey scandal, where seven Federal and State 
officials are said by investigators to have knowingly planted 
false data or evidence on at least three occasions on two 
national forests, in violation of the peer reviewed, 
scientifically valid species survey process. These allegations, 
which have been substantially borne out by at least two 
investigations, have stoked the worst fears and suspicions of a 
lot of folks in the West: namely, that select Federal land and 
resource management officials have a propensity to operate 
outside the bounds of sound science and good faith when making 
enduring decisions about the future management of our Federal 
lands.
    This unsettling string of events in Washington State 
underscores just how susceptible so-called ``science'' is to 
the whims of ill-guided decisionmakers. These incidents raise 
very weighty questions about the way we do business on our 
Federal lands, and for that reason I want to commend the 
Chairman for bringing the issue before the Full Committee 
today.
    The essence of public service is best summed up in a single 
word: trust. It is kind of like a police officer. We don't 
expect a police officer to plant evidence, and we certainly 
should have those same kind of expectations of Federal 
employees.
    For those of us who spend our professional lives making 
decisions that affect our neighbors, our communities, and the 
future of our country, credibility is our only currency. 
Integrity is key. Whether we are talking about a Member of 
Congress, your local police chief, or a Fish and Wildlife 
Service biologist, trust is the coin of realm in our line of 
work. Nobody expects perfection out of our public officials, 
but when the American people can't even expect good faith and 
pure motives out of their government, good decisions and 
constructive decisionmaking processes become difficult.
    Based on the facts already before us regarding what 
transpired on these forests, it is objectively clear that the 
implicated biologists trampled the public trust when they chose 
to dump a peer-reviewed, scientifically authentic lynx survey 
protocol in favor of their own half-baked, pseudo science 
techniques. Their actions were plainly unethical, totally 
unprofessional, and in my estimation deserving of more than a 
token slap on the wrist. If credibility is in fact a public 
official's only currency, these people are broke.
    For everyone and every agency involved, the implications of 
this incident have been far-reaching. In one fell swoop, the 
lynx survey seven blew a hole in the credibility of the 
National Lynx Survey, toppled public confidence in the Forest 
Service and Fish and Wildlife Service, and raised the specter 
that other similar ``scientific'' endeavors weren't really 
about science at all.
    While there has been a great deal of public speculation 
about the motives of these ethically challenged individuals, in 
my estimation we will never fully understand the impetus behind 
these unauthorized actions until several key questions are 
answered.
    For example, why did the Forest Service biologist who first 
blew the whistle on this whole affair wait until his last day 
of employment to do it?
    If the Fish and Wildlife biologist who submitted the 
unauthorized lynx sample from the national forest was really 
just trying to ``test the lab,'' why did he withhold that 
information from the lab until he was called out by 
investigators several months later?
    Why, according to the field director of the National Lynx 
Survey, did the same Fish and Wildlife biologist go to great 
pains to ``hide the fact that he sent in a control sample''?
    Similarly, why did the implicated Washington Division of 
Fish and Wildlife biologists wait for an investigation before 
they informed the lab about submitting an unauthorized lynx 
sample?
    Finally, and most importantly, why did all of the involved 
Federal and State biologists knowingly choose to violate a 
scientifically valid protocol when there were other legitimate 
means, other legitimate means, of exploring their concerns in a 
manner consistent with that protocol?
    These are just a few of the many questions that must be 
answered before we can reach any definitive judgment on the 
motivation question. I hope the GAO will assist us with these 
issues today.
    Beyond these important questions, though, there are also 
big questions about the way the agencies handled the incidents 
after they occurred. Why did regional Forest Service and Fish 
and Wildlife officials report these incidents to their 
superiors in Washington, D.C. only after a congressional 
inquiry into the matter some 15 months after the bogus planted 
evidence samples were submitted?
    Given the potential scope of damage that these activities 
could have on lynx survey data, and given the blatant nature of 
this ethical lapse, why in the name of common sense weren't the 
implicated parties subject to punishment commensurate with the 
gravity of their deeds? Instead, they were given bonuses by the 
government for their performances. The idea that verbal 
counseling, whatever that is, amounts to a real form of 
punishment, is a joke.
    Finally, if these unauthorized actions were in fact 
serious, as all of the agencies have repeatedly said they were, 
why were several of these biologists given merit pay raises and 
special commendations and bonuses, etcetera, shortly after 
intentionally breaching the lynx protocol by planting evidence?
    The fact that these bureaucrats got this kind of 
recognition while engaging in this unethical conduct is out of 
line. At the end of the day, it says a great deal about the 
cultural mind-set of these agencies. What is more, this 
explains why a lot of folks in the West view these agencies 
with an increasingly skeptical eye.
    I look forward to the hearing today, and Mr. Chairman, I 
thank you for the time.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    The Chairman.
    Today, the Resources Committee will take a much needed look at the 
national lynx survey scandal, where seven federal and state officials 
are said by investigators to have knowingly planted false data on at 
least three occasions on two national forests in violation of a peer-
reviewed, scientifically valid species survey process. These 
allegations, which have been substantially borne out by at least two 
investigations, have stoked the worst fears and suspicions of a lot of 
folks in the West--namely, that select federal land and resource 
management officials have a propensity to operate outside the bounds of 
sound science and good faith when making enduring decisions about the 
future management of our federal lands. This unsettling string of 
events in Washington State underscores just how susceptible so-called 
``science'' is to the whims of ill-guided decision makers. These 
incidents raise very weighty questions about the way we do business on 
our federal lands, and for that reason I want to commend the Chairman 
for bringing the issue before the full Committee today.
    Colleagues, the essence of public service is best summed up in a 
single word--trust. For those of us who spend our professional lives 
making decisions that affect our neighbors, our communities and the 
future of our country, credibility is our only currency. Whether we're 
talking about a Member of Congress, your local Police Chief, or a Fish 
and Wildlife Service biologist, trust is the coin of the realm in our 
line of work. Nobody expects perfection out of public officials, but 
when the American people can't even expect good faith and pure motives 
out of its government, good decisions and constructive decision-making 
processes become difficult.
    Based on the facts already before us regarding what transpired on 
the Gifford Pinchot and Wenatchee National Forests, it is objectively 
clear that the implicated biologists trampled the public trust when 
they chose to dump a peer-reviewed, scientifically authentic lynx 
survey protocol in favor of their own half-baked, psuedo-scientific 
techniques. Their actions were plainly unethical, totally 
unprofessional and, in my estimation, deserving of more than a token 
slap on the wrist. If credibility is in fact a public official's only 
currency, these people are dead broke.
    For everyone and every agency involved, the implications of this 
incident have been far-reaching. In one fell-swoop, the ``lynx survey 
seven'' blew a hole in the credibility of the national lynx survey, 
toppled public confidence in the Forest Service and Fish and Wildlife 
Service, and raised the specter that other similar ``scientific'' 
endeavors weren't really about science at all.
    While there has been a great deal of public speculation about the 
motives of these ethically-challenged individuals, in my estimation we 
will never fully understand the impetus behind these unauthorized 
actions until several key questions are answered. For example, why did 
the Forest Service biologist who first blew the whistle on this whole 
affair wait until his last day with the Forest Service prior to 
retiring to do so? If the Fish and Wildlife Service biologist who 
submitted an unauthorized lynx sample from the Wenatchee National 
Forest was really just trying to ``test the lab'', why did he withhold 
that information from the lab until he was called out by investigators 
several months later? Why, according to the Field Director of the 
National Lynx Survey, did the same Fish and Wildlife biologist go to 
great pains to ``hide the fact that [he] sent in a control sample''? 
Similarly, why did the implicated Washington Division of Fish and 
Wildlife biologists wait for an investigation before they informed the 
lab about submitting an unauthorized lynx sample? Finally and most 
importantly, why did all of the involved federal and state biologists 
knowingly choose to violate a scientifically valid protocol when there 
were other legitimate means of exploring their concerns in a manner 
consistent with that protocol?
    These are just a few of the many questions that must be answered 
before we can reach any definitive judgment on the motivation question. 
I hope the GAO will shed some light on these issues today.
    Beyond these important questions, though, there are also big 
questions about the way the agencies handled the incidents after they 
occurred. Why did regional Forest Service and Fish and Wildlife Service 
officials report these incidents to their superiors in Washington, DC 
only after a Congressional inquiry into the matter some 15 months after 
the bogus samples were submitted? Given the potential scope of the 
damage that these activities could have had on the lynx survey data, 
and given the blatant nature of this ethical lapse, why in the name of 
common sense weren't the implicated parties subjected to punishment 
commensurate with the gravity of their deeds? The idea that verbal 
counseling'', whatever that is, amounts to a real form of punishment is 
a joke. Finally, if these unauthorized actions were in fact serious, as 
all of the agencies have repeatedly said they were, why were several of 
these biologists given merit pay raises and special commendations 
shortly after intentionally breeching the lynx protocol and the public 
trust?
    The fact that these malfeasant bureaucrats got a pay bump and a pat 
on the back after engaging in totally unethical conduct is, in my 
estimation, a singular outrage. At the end of the day, it says a great 
deal about the cultural mindset of these two agencies. What's more, it 
explains why a lot of folks in the West view these agencies with an 
increasingly skeptical eye. I look forward hearing from the 
Administration witnesses to find out what their plans are to remedy 
this brazen mindset, and to head-off similarly scandalous conduct out 
in the future.
    It is with that Mr. Chairman that I once again commend you for 
convening this hearing and I look forward to hearing from our 
distinguished panel of witnesses.
                                 ______
                                 
    The Chairman. Thank you, Chairman McInnis.
    Members of the Committee and our witnesses here, we would 
like to start with you, but if you will look back and see those 
two lights up on the wall, that means we have a vote on. I 
think it would probably be best at this point, with the 
conclusion of your statement, that we just go ahead and make 
that vote, then hurry back and we will turn immediately to our 
witnesses. Would that be all right with everyone?
    I guess no one is going to object, so we will just go ahead 
and stand in recess.
    [Recess.]
    Mr. McInnis. [Presiding.] The Committee is going to come 
back to order. We will have members that will be coming back in 
here. We have another vote in less than an hour, so we are 
going to try and cover some territory here. For the rest of the 
members, we will go ahead and have you submit your opening 
statements for the record. We will go ahead and proceed with 
our panels.
    As you noted, in our previous opening statements somebody 
had a mobile phone out there. If you have a cellular phone, 
turn it off now. That is a real interruption. We don't want 
that kind of interruption in this Committee room.
    With that, we will go ahead with panel one. We have got Ron 
Malfi--is that how we do it?
    Mr. Malfi. That is correct.
    Mr. McInnis. Good, Ron. Patrick Sullivan, who is assisting 
him there, and I think they also have their counsel there. Ron, 
I know you have got an opening statement, but then this 
scenario is somewhat complicated so I would kind of--we 
obviously will have your testimony submitted for the record, 
but I really am looking to you to kind of walk us through the 
incident so we have an understanding of the logistical--you 
know, how it happened logistically. So, Ron, if you would go 
ahead, you may proceed.

STATEMENT OF RONALD MALFI, ACTING MANAGING DIRECTOR, OFFICE OF 
    SPECIAL INVESTIGATIONS, U.S. GENERAL ACCOUNTING OFFICE, 
ACCOMPANIED BY PATRICK SULLIVAN, ASSISTANT DIRECTOR, OFFICE OF 
   SPECIAL INVESTIGATIONS, AND BOB KRAMER, ASSISTANT GENERAL 
                            COUNSEL

    Mr. Malfi. What I would like to do is, I would like to read 
this statement, just to give an overview of how the 
investigation turned out, and then any questions that you have, 
or anybody else on the Committee, I will answer them for you.
    Mr. Chairman and members of the Committee, we are here 
today to discuss the investigation you asked us to undertake 
concerning allegations that biologists with both Federal and 
State agencies submitted or participated in the submission of 
unauthorized hair samples reported from the Gifford Pinchot and 
Wenatchee National Forests in response to the National 
Interagency Canadian Lynx Survey. The report titled ``Canada 
Lynx Survey: Unauthorized Hair Samples Submitted for Analysis'' 
dated March 3, 2002, released today, details our investigation, 
and I ask that it be made part of the hearing record.
    Accompanying me today is Assistant Director Patrick 
Sullivan and Assistant General Counsel Bob Kramer.
    The National Interagency Canada Lynx Survey was designed to 
determine the presence of Canadian lynx through DNA analysis of 
hair samples recovered from scratch pads located in forests of 
the northern United States. Included in the survey were the 
Gifford Pinchot and the Wenatchee National Forests in 
Washington.
    The survey covered a 3-year period from 1999 through 2001, 
was sponsored by the U.S. Forest Service, with the assistance 
of the U.S. Fish and Wildlife and the Washington Department of 
Fish and Wildlife. The University of Montana's laboratory 
performed the DNA testing of hair samples collected under the 
survey. If the national survey had detected Canadian lynx in an 
area not previously recognized as a known lynx habitat, a 
follow-up survey would have been conducted in that area to 
determine whether or not a lynx population was present.
    Beginning in January 2002, we investigated the facts and 
circumstances surrounding the submission of the unauthorized 
samples to the laboratory as part of the national survey, and 
focused the investigation on whether the biologists involved 
had communications about their submissions.
    In summary, there were four instances in which unauthorized 
hair samples not obtained from the Wenatchee or Gifford Pinchot 
National Forests were submitted for DNA testing as part of the 
national survey for those forests. These included one 
submission of bobcat hair in 1999 and three submissions of lynx 
hair in September and October of 2000.
    The Forest Service, Fish and Wildlife Service, and 
Washington Department of Fish and Wildlife employed the 
biologists who made these submissions. These biologists 
maintain that they submitted these samples to test the accuracy 
of the work performed by the laboratory, although they knew 
that the protocol for the national survey did not provide for 
such action. They also stated that they did not have the 
authority to make these submissions, and that they were aware 
that they had alternatives for testing the laboratory other 
than submitting samples as part of the survey.
    The protocol under which the survey was conducted describes 
the method for detecting lynx, obtaining lynx hair samples, and 
submitting the samples to the laboratory for analysis. The 
protocol did not provide procedures to submit hair samples 
collected outside the survey to test the accuracy of laboratory 
results. Further, the director of the laboratory told us that 
there was no procedure whereby the biologists who submitted 
these samples would receive preliminary results so that they 
could subsequently notify the laboratory of their unauthorized 
submissions.
    In 2000, one of the participants, a biologist with the 
Forest Service, notified the field coordinator for the national 
survey that a controlled sample had been submitted in 
connection with the survey for the Gifford Pinchot National 
Forest. However, he did not identify which sample was the 
control.
    As a result, the laboratory and the Forest Service decided 
not to analyze the hair samples submitted as part of the 2000 
survey for the region that included the Gifford Pinchot and the 
Wenatchee National Forests until the Forest Service completed 
an investigation and identified all of the unauthorized 
submissions. None of the other biologists who made unauthorized 
submissions disclosed their actions until after the Forest 
Service commenced its investigation.
    After the unauthorized samples were identified, the 
laboratory completed its analysis of the 2000 survey samples, 
including the three unauthorized samples. These three samples 
were determined to be Canadian lynx, and were the only samples 
submitted for analysis for the Gifford Pinchot and Wenatchee 
National Forests that actually tested positive for Canadian 
lynx.
    We found that some of the individuals who participated in 
the unauthorized submissions had discussions about submitting 
unauthorized samples both prior to and after the submissions. 
For example, a biologist with the Fish and Wildlife Service had 
prior discussions with two of the three biologists who made 
unauthorized submissions in 2000. The biologist did not make 
any submissions, but participated in the collection of hair 
collected from a captive lynx which was the source of the 
unauthorized samples submitted by both a Forest Service 
biologist from the Gifford Pinchot National Forest and another 
Fish and Wildlife Service biologist from the Wenatchee National 
Forest.
    Further, the employees of the Washington Department of Fish 
and Wildlife who made the unauthorized submissions did not 
discuss those submissions in advance with persons outside their 
department. They did, however, subsequent to the submissions, 
discuss their actions with employees of both the Forest Service 
and the Fish and Wildlife Service, some of whom also made 
unauthorized submissions.
    We also found that other employees in the Forest Service, 
Fish and Wildlife, and Washington Department of Fish and 
Wildlife, knew of and/or participated in the unauthorized 
submissions, including some supervisors.
    Mr. Chairman, that completes my prepared statement. We 
would be happy to respond to any questions you or other members 
may have at this time.
    [The prepared statement of Mr. Malfi follows:]

Statement of Ronald Malfi, Acting Managing Director, Office of Special 
        Investigations, United States General Accounting Office

    Mr. Chairman and members of the Committee:
    We are here today to discuss the investigation you asked us to 
undertake concerning allegations that biologists with both federal and 
state agencies submitted or participated in the submission of 
unauthorized hair samples purportedly from the Gifford Pinchot and 
Wenatchee National Forests, in response to the National Interagency 
Canada Lynx Survey (National Survey).
    The report titled, Canada Lynx Survey. Unauthorized HairSamples 
Submitted for Analysis, dated Mar. 3, 2002, (GAO-02-338R) released 
today details our investigation, and l ask that it be made a part of 
the hearing record. Accompanying me today is Assistant Director Patrick 
Sullivan.
    The National Interagency Canada Lynx Survey (Protocol) was designed 
to determine the presence of Canada lynx through deoxyribonucleic acid 
(DNA) analysis of hair samples recovered from scratch pads located in 
forests of the northern United States. Included in the survey were the 
Gifford Pinchot and Wenatchee National Forests, in Washington. This 
survey covered a three-year period from 1999 through 2001, was 
sponsored by the U. S. Forest Service, with the assistance of the U. S. 
Fish and Wildlife and the Washington Department of Fish and Wildlife. 
The University of Montana's laboratory performed the DNA testing of 
hair samples collected under the survey. If the National Survey had 
detected Canada lynx in an area not previously recognized as a known 
lynx habitat, a follow-up survey would have been conducted in that area 
to determine whether or not a lynx population was present.
    Beginning in January 2002, we investigated the facts and 
circumstances surrounding the submission of the unauthorized samples to 
the laboratory as part of the National Survey and focused the 
investigation on whether the biologists involved had communications 
about their submissions.
    In summary, there were four instances in which unauthorized hair 
samples not obtained from the Wenatchee and Gifford Pinchot National 
Forests, were submitted for DNA testing as part of the National Survey 
for those forests. These included one submission of bobcat hair in 
1999, and three submissions of lynx hair in September and October 2000. 
The Forest Service, Fish and Wildlife Service, and Washington 
Department of Fish and Wildlife employed the biologists who made those 
submissions. These biologists maintain that they submitted these 
samples to test the accuracy of the work performed by the laboratory, 
although they knew that the Protocol for the National Survey did not 
provide for such action. They also stated that they did not have the 
authority to make these submissions and that they were aware that they 
had alternatives for testing the laboratory other than submitting 
samples as part of the survey.
    The Protocol under which the survey was conducted describes the 
method for detecting lynx, obtaining lynx hair samples, and submitting 
the samples to the laboratory for analysis. The Protocol did not 
provide procedures to submit hair samples collected outside the survey 
to test the accuracy of laboratory results. Further, the director of 
the laboratory told us that there was no procedure whereby the 
biologists who submitted samples would receive preliminary results, so 
that they could subsequently notify the laboratory of their 
unauthorized submissions.
    In 2000, one of the participants, a biologist with the Forest 
Service, notified the field coordinator for the National Survey that a 
control sample had been submitted in connection with the survey for the 
Gifford Pinchot National Forest. However, he did not identify which 
sample was the control. As a result, the laboratory and the Forest 
Service decided not to analyze the hair samples submitted as part of 
the 2000 survey for the region that included the Gifford Pinchot and 
Wenatchee National Forests until the Forest Service completed an 
investigation and identified all of the unauthorized submissions. None 
of the other biologists who made unauthorized submissions disclosed 
their actions until after the Forest Service commenced its 
investigation.
    After the unauthorized samples were identified, the laboratory 
completed its analysis of the 2000 survey samples, including the three 
unauthorized samples. These three samples were determined to be Canada 
lynx, and were the only samples submitted for analysis for the Gifford 
Pinchot and Wenatchee National Forests that tested positive for Canada 
lynx.
    We found that some of the individuals who participated in the 
unauthorized submissions had discussions about submitting unauthorized 
samples both prior to and after the submissions. For example, a 
biologist with the Fish & Wildlife Service had prior discussions with 
two of the three biologists who made unauthorized submissions in 2000. 
This biologist did not make any submission, but participated in the 
collection of hair collected from captive lynx, which was the source of 
the unauthorized samples submitted by both a Forest Service biologist 
with the Gifford Pinchot National Forest and another Fish and Wild Life 
Service biologist with the Wenatchee National Forest.
    Further, the employees of the Washington Department of Fish and 
Wildlife who made the unauthorized submissions did not discuss those 
submissions in advance with persons outside their Department. They did, 
however, subsequent to the submissions, discuss their actions with 
employees of both the Forest Service and Fish and Wildlife Service, 
some of whom also made unauthorized submissions.
    We also found that other employees of the Forest Service, Fish and 
Wildlife, and Washington Department of Fish and Wildlife knew of and/or 
participated in the unauthorized submissions, including some 
supervisors.
    Mr. Chairman, that completes my prepared statement. We would be 
happy to respond to any questions you or other members of the Committee 
may have at this time.
                                 ______
                                 
    Mr. Malfi. Excuse me, sir. I forgot one thing. We have 
charts here that we want to put up. Pat Sullivan will give you 
an explanation in regards to the time line that we have 
concerning this investigation.
    Mr. McInnis. Mr. Sullivan, if you would go ahead and 
proceed us through with the charts.
    Mr. Sullivan. Yes, sir. The first chart is a diagram of the 
State of Washington--
    Mr. McInnis. Let's see, Mr. Sullivan. We have got part of 
the Committee over here, too. There you are. That is much 
better. Thank you.
    Mr. Sullivan. --according to the State of Washington for 
this investigation. The line in the middle--
    Mr. McInnis. Mr. Sullivan, again I apologize for the 
interruption, but for the panel's convenience, you do have his 
in your handouts, so it will make it a little easier for you to 
follow.
    Thank you. You may proceed.
    Mr. Sullivan. Mr. Chairman, the line in the middle is the 
crest of the Cascade Mountains. Three national forests played a 
role in this investigation: the Okanogan National Forest; the 
Wenatchee National Forest, which stretches all the way down to 
Yakima; and the Gifford Pinchot National Forest.
    Etonville and Union Gap are significant. Etonville is the 
location of the Northwest Trek zoological park, and Union Gap 
is the location of a captured pet lynx which came into this 
case. The cites of Lacey, Vancouver, Yakima, and Wenatchee are 
locations where employees in this investigation were domiciled 
or where they worked.
    We had unauthorized submissions from the Gifford Pinchot 
National Forest and the Wenatchee National Forest. The Okanogan 
National Forest had positive hits during 1999 and 2000, and 
that is a known lynx habitat area.
    I will now proceed on the time line.
    In 1998 was the Weaver study which included portions of 
Washington and Oregon, specifically the Wenatchee National 
Forest and the Gifford Pinchot National Forest. In March 1999, 
Dr. Weaver issued his preliminary results which showed positive 
DNA hits for lynx in Wenatchee and Gifford Pinchot.
    July 1999, for Region 6 of the Forest Service there was a 
National Lynx Survey training session, in which the majority of 
the personnel in this investigation attended this training 
session.
    Later on in 1999, in the Fall of '99, there was an 
unauthorized submission of a bobcat pelt hair by a Washington 
State employee we have identified as State employee No. 1, and 
that was from the Wenatchee National Forest.
    Spring of 2000, the results from the 1999 survey were 
released by the lab, and it showed negative DNA hits for lynx 
for the Wenatchee and Gifford Pinchot National Forests.
    We next move on to later on in the spring of 2000. The 
employee who submitted the unauthorized submission in 1999, the 
Washington State employee, informed a Forest Service employee 
from the Wenatchee National Forest and Fish and Wildlife 
service employee No. 1 of his unauthorized submission.
    Moving on, in September of 2000 we had a trip to the 
Northwest Trek by Fish and Wildlife Service employee No. 2 and 
Forest Service employee No. 1, at which time they obtained hair 
from a captive lynx at the zoo there. There were subsequently 
three unauthorized submissions during the 2000 season.
    The first submission took place by Washington State 
employee No. 2. He submitted hair from the pet lynx that was 
captured in Union Gap, Washington. September and October, 
unauthorized submissions by Forest Service employees with hair 
from the Northwest Trek, and a subsequent submission by a Fish 
and Wildlife employee with hair from the Northwest Trek.
    On September 29th, Forest Service employee No. 1 telephoned 
the national coordinator, field coordinator for the national 
survey of the Forest Service in Montana, and informed him via 
voice mail that there were some control samples being 
submitted.
    On October 2nd when the field coordinator received that 
voice mail message from the Forest Service employee, he 
notified his supervisors, and the lab and the Forest Service 
jointly made a decision to set aside all samples from Region 6, 
which included Wenatchee and Gifford Pinchot, until such time 
as the Forest Service could conduct an investigation and 
identify the unauthorized submissions.
    Approximately spring to summer of 2000, they completed 
their analysis and determined that there were negative hits 
from all the samples from Wenatchee and Gifford Pinchot, with 
the exception of the three unauthorized samples, which by that 
time they had identified.
    And to complete the cycle, in June of 2001 Dr. Weaver 
issued his final report from his 1998 survey, in which he 
acknowledged that samples he had collected from Wenatchee and 
Gifford Pinchot were in fact contaminated, and he invalidated 
his original results.
    That completes my presentation, Mr. Chairman.
    [The information referred to follows:] 
    [GRAPHIC] [TIFF OMITTED] 78011.007
    
    [GRAPHIC] [TIFF OMITTED] 78011.008
    
    [GRAPHIC] [TIFF OMITTED] 78011.009
    
    [GRAPHIC] [TIFF OMITTED] 78011.010
    
    Mr. McInnis. Thank you very much. We will go ahead and move 
on to questioning by the Committee. I will begin the 
questioning.
    At the hearing--and Ron, I will direct this to you--at the 
hearing in front of the Washington State legislature earlier 
this year, State and Federal officials said that each of the 
incidents were isolated and that the three implicated agencies 
did not collude with one another during this process. Would you 
agree with that assessment? And also, how extensively did the 
agencies work with one another in submitting the unauthorized 
samples?
    Mr. Malfi. There was communications between the individuals 
that were involved in the unauthorized samples. First, there 
was communication between the first State department, the 
Washington State Fish and Wildlife individual who sent in a 
sample in 1999. He told one of the U.S. Fish and Wildlife 
people that he submitted his sample in the year 2000.
    That person had conversations with another Fish and 
Wildlife biologist, who also had conversations with a Forest 
Service biologist. The Forest Service biologist and the Fish 
and Wildlife biologist went up to get the samples from the 
lynx. They got them based on knowing that they were going to 
submit these to the lab as unauthorized submissions.
    Basically, they had conversations about how these things 
were going to be sent in, whether they should be sent in as a 
sample or should they be sent in as part of the survey, and 
they have all basically agreed that they should be sent in as 
part of the survey. One of the Forest Service people that 
actually picked up the samples gave it to another employee who 
actually did the submission, so there was communication among 
some of the individuals who were either involved in getting the 
samples or actually submitting the samples.
    Mr. McInnis. And were the implicated biologists forthright 
and honest during your investigation? How were those 
interviews?
    Mr. Malfi. On some of the interviews that I personally 
conducted, which were re-interviews, to go back to individuals 
to talk to them, they seemed to be very guarded in their 
comments that they made. The interviews lasted a period of time 
in order to try and elicit all of the facts that we were able 
to obtain.
    Mr. McInnis. Were the biologists aware that their actions 
were in direct contravention of the protocol, and did they know 
there were other legitimate means of testing the laboratory, 
and that it was not within their authority to carry out this 
testing, so-called testing?
    Mr. Malfi. Correct, and I will concentrate basically on the 
Federal employees. In our conversations with them, they all 
admitted that they knew it was not in the protocols, that they 
weren't allowed to do this. They all knew they had no 
authorization to do this, nor were they of the pecking order to 
actually test the laboratory.
    They also stated that they knew that there was alternative 
methods to test the lab, as opposed to making it part of the 
survey. Two of the biologists that we spoke to, one with the 
Forest Service and one with Fish and Wildlife, really had no 
explanation as to why they made it part of the survey.
    One Fish and Wildlife biologist did have an explanation in 
regards to why they felt it was imperative or was important to 
them to submit this as part of the survey, and they felt that 
if they submitted it as part of the survey, that it would be 
treated exactly like all the other samples; that if they 
flagged it as a sample, that possibly the lab would not conduct 
a test on it or that they would treat it differently. But they 
quantified that statement by saying that they realized that 
they could have sent in a bobcat hair or other type of hair in 
order to get the kind of same results in testing the lab.
    Mr. McInnis. And did you identify any evidence that would 
point to the fact that Fish and Wildlife biologists would have 
notified the lab if not approached by investigators?
    Mr. Malfi. Sir, could you repeat that question?
    Mr. McInnis. The key I am trying to get here is, was there 
any evidence that these biologists would have come forward on 
their own, voluntarily, to tell you that there was planted 
evidence, Fish and Wildlife, that there was planted evidence, 
prior to the investigation commencing or prior to the whistle-
blower? Did you come up with any evidence at all that ``Hey, 
we're going to do a test this week, but we'll let them know 
next week that we put in this, we planted this test here, this 
sample.''
    Mr. Malfi. The one Fish and Wildlife biologist that was the 
connection between the Forest Service person and the other Fish 
and Wildlife biologist stated that they had no intentions of 
notifying the lab because they did not themselves, even though 
they picked up samples, did not submit any samples. They felt 
that the Forest Service person was going to contact the lab.
    That individual, the Forest Service person, told us that 
they always were going to contact the laboratory. But then we 
asked them why, if they were going to contact the lab and tell 
them that there was a false sample, ``Why did you submit it as 
part of the survey?'' And he said that the other people he 
spoke to, one of whom was the person who actually submitted the 
sample, decided they wanted to make it part of the survey.
    And we asked him, you know, ``Why would you allow one of 
your co-workers to submit this as part of the survey, when you 
knew that they had to falsify or make up documentation to 
accompany that survey, if you had intentions all along to 
contact the lab?'' And basically he couldn't explain that away. 
He just stated that he always intended to contact the lab. And 
he was the fellow that in fact did contact the laboratory.
    The 26th I believe those samples--the 19th of September the 
samples were picked up. The 26th I believe they sent them in. 
He contacted the lab on the 29th. He called, left a voice mail 
for someone who was the liaison for the lab, and I believe he 
retired the next day or so.
    Mr. McInnis. But the Fish and Wildlife people didn't come 
forward. This wasn't--
    Mr. Malfi. No.
    Mr. McInnis. OK, and let me ask one final question, then we 
will move on. Once the unauthorized samples were submitted, was 
there a reasonable chance that the bogus samples could have 
worked their way into the survey's final data set? In other 
words, when these biologists sent their planted evidence in, 
what kind of control did they exercise over their sample? Could 
it have gotten into the final results?
    Mr. Malfi. Well, based on the '99 submission that was sent 
in, that was an unauthorized submission, these were from a 
bobcat pelt and they could not identify it. It was ``no qual'' 
because of the DNA testing, I guess because of the tanning 
process that was used. And I am not a scientist, I am just 
giving you, reiterating what the people that we spoke to told 
us.
    That survey, the ``no qual'' that came back on those 
samples, was in fact included in the 1999 survey. When I spoke 
to the director of the Montana lab, who was a co-director of 
the National Lynx Survey, he stated that he had heard that 
these people always stated that they were going to contact the 
lab once the submissions came in, and then they would notify, 
they were going to notify the lab and say that these certain 
submissions were, you know, unauthorized or control.
    He said, ``But the problem with that is, they had no 
vehicle to do that.'' He said that once these results were put 
together, that they would issue their survey, the results of 
their survey for that year, and it was like a draft was going 
to go to them and they would have time to make corrections and 
it would go back. He said there was no procedure, no vehicle in 
place for them to actually go back to correct that survey, so 
it would have been made part of the national survey.
    Mr. McInnis. Thank you.
    Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Malfi. Obviously there is a 
great interest in knowing what the motivation for these 
individuals was. In other words, was it to try to boost the 
number of lynx samples that were identified falsely, or in fact 
was it in an effort to test the laboratory? And it seems to me 
that is very distinct motivation.
    So let me just ask you some questions. I don't have a lot 
of time, so if you can keep your answers kind of short, I would 
appreciate it.
    Did any of these people ever say anything like, ``The 
reason I did this was because, you know, these lynx are there 
and I believe they're there, and we need to disclose it, and 
it's just a handy way to do it,'' did any of them give you any 
suggestion like that, that that was their motivation?
    Mr. Malfi. None of the people that were involved in the 
unauthorized submissions ever stated anything other than the 
fact that they were doing this to test the lab.
    Mr. Inslee. Now, I'm trying to piece this together, but at 
least two of the people involved, as far as I can tell, did 
tell someone in the supervisory chain above them that they had 
done this, before Congress got involved. Is that right?
    Mr. Malfi. There is some confusion in regards to that. Some 
individuals who basically, like one of the re-interviews we did 
of a Fish and Wildlife biologist who submitted an unauthorized 
sample, stated in his first interview that he had authorization 
or notified his supervisor. When we re-interviewed him, he 
changed that story to the fact that he told his supervisor, 
after the submissions, he had put them in.
    Mr. Inslee. Let me stop you on that. On that particular 
one, in other words, he said that he told his supervisor after 
he sent in the submission but before somebody in Congress 
raised a hue and cry about that. Did I get that right?
    Mr. Malfi. I don't know. No, when he told her--well, before 
Congress go involved, the submissions were put in, so basically 
he would have told his supervisor. He submitted the samples in 
September, I mean October of 2000, so if he told her prior to 
that, it had to be sometime prior to October 2000. But he 
changed that as to telling her that he submitted these after he 
actually submitted them in.
    And then other problems with the supervisor, that some did 
not know what the protocols were, so when they were told by one 
or two of these individuals that they were submitting a control 
sample, their supervisor didn't realize that that was not in 
the protocols. So they knew it, they didn't object to it, but 
they didn't know that this was not part of the protocol.
    Mr. Inslee. Well, maybe this is clear to everyone but me, 
but let me try another crack at this. My understanding is, most 
if not all of the individuals involved in this told somebody 
else that they had submitted or were going to submit a control 
sample before they learned of some investigation. Is that 
accurate?
    Mr. Malfi. Oh, yes. There was discussions among certain of 
those individuals with others.
    Mr. Inslee. Right. Now, the reason I ask that is, and I 
think this is important because, you know, if these people were 
consciously trying to phony up samples of lynx on this 
important issue, you know, that is sort of equivalent of 
homicide. And if they did it just to test the lab, it is 
something less than that, so this is an important issue to us 
on the Committee, I think.
    It seems to me that if you were consciously trying to boost 
the numbers of lynx that were found, you wouldn't tell your 
supervisor about it. You wouldn't tell anybody about it. But 
these people apparently did. Would that suggest to you that 
they were trying to test controls as opposed to trying to boost 
the number of lynx?
    Mr. Malfi. I can't account for what motivated these people, 
or being that no one told me anything other than they were 
trying to test the lab, I couldn't make a statement that there 
was other things involved. But looking at the evidence, one of 
the interviews that we conducted were with supervisors of some 
of the biologists, and there seemed to be a concern with the 
biologists, that the scientists were looking at the scope of 
the lynx habitat too narrowly, and that the biologists wanted 
to broaden the scope of the lynx habitat.
    There was discussions about this, and the supervisors told 
a couple of the biologists--there was a few of them that were 
involved. We have one that was involved in collecting the 
samples up in the Northwest Trek, that was involved in 
producing--in this discussion, and there is some question about 
if there was the other person that was involved in the 
submission.
    Mr. Inslee. Just one more quick question, if I may, Mr. 
Chair.
    Did one of these people keep notes, duplicate notes that 
disclosed that they were submitting a false or control sample? 
Did I read that somewhere?
    Mr. Malfi. I am aware that one of the Fish and Wildlife 
Service biologists had a sheet. He had to falsify a sheet to 
submit with the unauthorized samples, so he had the original 
sheet which was actually part of--that he should have submitted 
in with the samples, because there was no hits I believe on 
them, and then he had another sheet that he wrote on, that said 
that it was a sample that he submitted.
    Mr. Inslee. Would that suggest to you that the guy kept 
notes showing it was false, it was a control, that in fact he 
was submitting it as a control, not to boost the lynx? I mean, 
if I was going to falsify this to try to boost lynx, would 
there be any reason I would keep notes showing that?
    Mr. Malfi. There is two sides to that story. I mean, there 
is two sides to it. One is, he was the only person that was in 
control of those papers, and I specifically asked him that. I 
asked him how could he prove to me through some other person or 
through some other means that this was actually the intention 
that he had.
    And in the conversation I said to him, ``Hypothetically, as 
an investigator, how do I know you didn't prepare these papers 
after this investigation came up?'' He couldn't respond to 
that. I'm not saying that he did do that. So that really 
doesn't clarify the situation to me.
    Mr. Inslee. Thank you.
    Thank you, Mr. Chair.
    Mr. McInnis. Ron, just real quickly before I move to the 
next one, I just want some clarification. If these samples 
would have been accepted, then it automatically broadens the 
scope because it kicks into a second investigation, doesn't it, 
or a second opening of the lynx study?
    Mr. Malfi. My understanding of the protocols, that if lynx 
appeared, lynx hairs appeared on scratch pads in areas where 
there were not known to have lynx, that a second phase of an 
investigation would kick off where they would do snow tracking, 
other types of investigation to try and reveal if in fact there 
was a lynx population in that area.
    Mr. McInnis. Thank you, Ron.
    Coach? I keep saying coach, out of respect.
    Mr. Osborne. Thank you. Thank you, Mr. Chairman.
    Let me clarify this a little bit. There were three agencies 
and seven employees involved, is that correct, directly?
    Mr. Malfi. That is correct.
    Mr. Osborne. Were there people beyond those seven who 
apparently either knew of, condoned, or somehow were involved 
in this whole activity?
    Mr. Malfi. There were other people that basically were 
aware that the submissions had happened or were going to be 
sent in. They didn't actively take part in either the gathering 
of the hairs or the actual submissions. Some of them knew about 
it and didn't realize that this was not part of the protocols.
    Mr. Osborne. Would you say that there were others who knew 
about it, who did know it wasn't part of the protocol?
    Mr. Malfi. That is correct.
    Mr. Osborne. And would you have a rough idea how many there 
would be?
    Mr. Malfi. I know right off the top of my head of one who 
was a supervisor for the first--the Washington State was the 
first sample that was submitted in '99. That person's 
supervisor found out about that later on, and realized it was 
an unauthorized submission, but felt that basically due to the 
fact that it was bobcat hair that was sent in and it wasn't 
identified, that there was no problem in it.
    Mr. Osborne. Well, I am kind of a stranger to government. I 
haven't been here very long. But it seems like most 
organizations I know about, and the past organization I was 
involved with, if you violated protocol or if you knowingly 
approved of someone or did not turn somebody in who violated 
protocol, you were directly implicated and you were 
responsible. I may be asking an unfair question, but do you 
feel there are others beyond these seven who bear some 
responsibility for what happened?
    Mr. Malfi. Basically, we had a short time in which to do 
this investigation, and we concentrated on the issues at hand. 
We looked closely at the people that were involved in the 
submissions of these unauthorized samples and a little bit of 
the surrounding area. We didn't broaden the scope of this 
investigation to encompass everybody that was involved or to 
see how much involvement they had and what their motivations 
were, things of that nature.
    Mr. Osborne. Would it be possible for you to provide a list 
of individuals that you felt were knowledgeable to the 
Committee, and not necessarily implicate them in terms of what 
their motivation was, but simply people who were aware beyond 
the seven individuals? Would you be able to provide that to us?
    Mr. Malfi. Yes, I believe that we could do that in private, 
yes.
    Mr. Osborne. I would appreciate that. And again, you know, 
I guess in this politically correct society we are not supposed 
to pass judgment on anybody, but I can't imagine in corporate 
America--or maybe we can now with Enron--or even in college 
athletics, which sometimes has a black eye, that something of 
this type could be done and verbal counseling would be the only 
remedy. It is just incomprehensible to me, because in most 
areas that I know of this would be grounds for dismissal, 
regardless of motivation.
    Let me just ask you one or two other brief questions here. 
What was the attitude of agency biologists toward the DNA lab 
at the University of Montana? Do you know what that was?
    Mr. Malfi. Their feelings toward the lab in Montana?
    Mr. Osborne. Right.
    Mr. Malfi. Some of the field biologists that we spoke to, 
and the reasons that these people stated, that they gave for 
doing this, was that they felt that the lab may not be able to 
correctly identify lynx here. So I guess they felt that the lab 
would have a problem or wouldn't be able to accomplish what the 
survey was setting out to do.
    Mr. Osborne. And one last question: Did any of the 
concerned employees, to your knowledge, attempt to contact the 
Montana lab or contact the U.S. Fish and Wildlife forensics lab 
in Ashland, Oregon to address their concerns?
    Mr. Malfi. What I understand, this is from interviewing the 
director at the Montana lab, was that early on in the survey he 
had heard some rumors that some of the biologists may be 
suspect of some of his protocols or the ability of the lab to 
perform this function.
    He said that he told the individual that, you know, if 
there was a concern, that he would walk anybody through and 
show them the protocols and explain to them how they did the 
testing. He says that individual never came back to them to 
take him up on his offer.
    He also stated that he never heard from anybody of an 
official status, from either Fish and Wildlife or the Forest 
Service, that had a concern about that, you know, had a concern 
about the lab not being able to perform its job. And he said if 
someone would have come to him, he says he would have walked 
him through his protocols.
    I mean, like I said earlier, I am not a scientist, but the 
individual I spoke to is. He is the director of that lab. And 
he said that he would have had no problems, you know, 
explaining these protocols, and felt that they would stand up 
under scientific scrutiny.
    Mr. Osborne. Thank you, Mr. Chairman. I yield back.
    Mr. McInnis. Mr. Gallegly?
    Mr. Gallegly. Mr. Chairman, thank you for yielding. First 
of all, I apologize for getting back. I have just come from a 
meeting with the President of Luxembourg, or the Prime Minister 
of Luxembourg, as the Chairman of the Subcommittee on Europe. I 
concurrently have a markup in Judiciary. So I would ask 
unanimous consent that I have an opening statement placed in 
the record.
    Mr. McInnis. Without objection, so ordered.
    Mr. Gallegly. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gallegly follows:]

Statement of The Honorable Elton Gallegly, a Representative in Congress 
                      from the State of California

    Mr. Chairman, State and federal biologists committed fraud by 
submitting false hair samples as part of the National Interagency 
Canada Lynx Survey. Interior Department Inspector General Earl Devaney 
stated in a report last week that the Fish and Wildlife Service failed 
to provide ``meaningful punishments'' for the Fish and Wildlife 
employees who were involved in submitting the false samples.
    Not only weren't they punished, they were rewarded with merit 
raises for their work on the survey. To make matter worse, a cash award 
was given to the employees involved. Mr. Devaney called this ``an 
incredible display of bad judgment.'' I call it outrageous.
    The scientists at the lab at the University of Montana had no way 
of knowing that the lynx hair samples they had received were not valid 
and the false data could have easily been included in the study's final 
conclusions. Consequently, this may have had an impact on the 
management of our federal lands.
    The designation of habitat where none exists can have a significant 
negative impact on the lives of farmers, businesses, and families who 
depend on the land in the habitat area. In addition, it can have an 
even greater detrimental impact on the economy.
    Mr. Chairman, the Endangered Species Act was meant to protect and 
restore threatened and endangered wildlife. However, it is clear that 
the act also empowers overzealous bureaucrats to violate scientific 
protocols to further their agendas and pay no penalty for it. In such 
cases, both the environment and the public's faith in the government 
suffers.
                                 ______
                                 
    Mr. McInnis. Thank you. Mr. Udall?
    Mr. Tom Udall. Thank you, Mr. Chairman.
    One of the issues here that I think that you have talked 
about and touched on a little bit, that I would like to explore 
with you, is if these samples were accepted as true samples, I 
want to explore with you a little bit of what the result would 
have been.
    There is some suggestion out there that if they were 
accepted as true samples, that somehow this would have been an 
automatic shutdown of areas, that there were going to be very 
drastic consequences as a result of this. And so my question 
is, isn't it true that even if these samples were accepted, 
that what we are talking about in order to have any drastic 
land use actions taken is another two or 3 years of additional 
studies where you do a snow tracking study, you do a three-
level study, you would do all of the things that really are 
necessary to make further determinations on whether a species 
is actually in the area?
    Mr. Malfi. Yes, that is correct.
    Mr. Tom Udall. The other thing I want--
    Mr. McInnis. Would the gentleman yield?
    Mr. Tom Udall. Well--
    Mr. McInnis. I will give you some additional time.
    Mr. Tom Udall. Can you give me--OK--can you give me 
additional time?
    Mr. McInnis. Yes, I will give you a few seconds, Mr. Udall.
    Mr. Tom Udall. Go ahead.
    Mr. McInnis. Let me ask the question--
    Mr. Tom Udall. I have such limited time, Mr. Chairman, but 
if you are going to--
    Mr. McInnis. Well, now you are taking away from your own 
time.
    Ron, just to finalize that question, who conducts the 
additional study, that second stage of the investigation, for 
example? Could it go back to the same biologist that conducted 
the first investigation?
    Mr. Malfi. That is correct, it possibly could, yes.
    Mr. McInnis. Thank you.
    You may proceed with your additional time, Mr. Udall.
    Mr. Tom Udall. And isn't it also true that by having 
additional study, that further levels of scientists and others 
could begin to look at that and have a review process on that, 
if some drastic actions like automatic shutdowns in an area 
were going to occur?
    Mr. Malfi. I am really not the one to, because I am not an 
expert on what the follow-up protocols were going to be. The 
only thing I do know is what you said earlier was correct, that 
if these samples would have gone through, this would have 
kicked off the second phase of an investigation, and that they 
would have done some snow tracking and other things to, I 
guess, determine if there was a lynx population there. From 
what I understand, it could last maybe 2 years, they could go 
in in the winter, look for snow tracking. If they didn't come 
up with anything, or did, they would maybe put out the pads 
again. But we really didn't delve into, other than the fact 
that these samples, if they went through, would kick off 
another phase of an investigation.
    Mr. Tom Udall. OK. Thank you.
    Mr. Malfi. You are welcome.
    Mr. Tom Udall. One of the, I think, very unfortunate 
results that has come out of this, and it is part of our 
system, when we have the press get into things and you look for 
the worst possible case. And we need to do that, and I think it 
is important to explore, but I think we are at the point now 
where we ought to be trying to make the record clear and seek 
the truth.
    And it seems to me that to cast aspersions that all of the 
scientists in the government do this kind of thing, to talk 
about this being the tip of the iceberg, that this is something 
rampant throughout the Federal Government, did you see this as 
some kind of widespread problem throughout the Federal 
Government with its scientists, that you are telling us about 
here today?
    Mr. Malfi. We looked at this one isolated investigation. We 
didn't broaden our scope to see if it was a system problem. We 
just concentrated on the issue, the investigation that we had 
at hand.
    Mr. Tom Udall. Was there anything that you saw in your 
investigation that would lead you to believe that this is a 
widespread problem?
    Mr. Malfi. It is hard to reach that conclusion because I 
didn't do an investigation with that in mind. I basically did 
it to concentrate on the issue at hand.
    Mr. Tom Udall. But usually you are in a position, aren't 
you, when you do an investigation, to make some kind of 
determination like that so that an additional study, additional 
GAO study can be opened up, or others can follow paths and 
figure things out?
    I would think that is a kind of a judgment. Although you 
don't make it in the conclusion, you would clearly, your group 
and your supervisors, if you thought there was a big problem 
out there, wouldn't you be telling people that and saying, you 
know, this isn't an isolated incident, we believe it is a much 
bigger problem?
    Mr. Malfi. In order to see if this is a systemic problem, 
we would have to do a lot more investigation and broaden the 
scope, not only of the lynx but into other practices in other 
studies, and we just didn't do that, based on the time 
constraint, and that wasn't what we were requested to do at 
that time.
    Mr. Tom Udall. OK. Well, I know, and I can understand that 
you don't want to speculate on that, and that we are at a part 
in this process where we have other witnesses that may well be 
able to talk about that. So thank you very much, and Mr. 
Chairman, thank you for the additional time. I very much 
appreciate it.
    Mr. McInnis. Mr. Duncan?
    Mr. Duncan. Mr. Chairman, first let me thank you and 
Chairman Hansen for calling this hearing, and I want to say 
that I agree with Chairman Hansen that this does raise into 
question other facts, reports, studies that have come out, that 
many people have felt have shown a very strong bias toward 
greatly limiting or restricting the public's access to many of 
our national parks and public lands of all types. And so I 
think this is a very important hearing, and something that we 
really need to look into.
    And contrary to something that our friend Mr. Inslee said a 
few minutes ago, he said something to the effect that this 
showed that the system was working and that it was set up in a 
way that this would be brought out. I think it is just a fluke 
that we discovered this at all, because it apparently was 
reported by a man who was retiring the next day.
    I believe that common sense tells that if he had not been 
retiring, and he would have faced ostracism or repercussions if 
he had reported this type of thing if he still had several 
years of employment left, it probably never would have been 
reported. We are just fortunate that he was near his 
retirement, I suppose.
    But what really boggles my mind is the fact that some of 
these employees involved were given bonuses after this had come 
out. Coach Osborne mentioned about a violation of protocols, 
and that is the polite way to put it, but to falsify 
information of this significance, which could have led to some 
pretty drastic actions being taken, I think I agree with him 
when he said a lot more than verbal counseling should have 
taken place.
    The Washington Times had an article this past Saturday, and 
the Inspector General for the Interior Department--or the story 
said the employees were given a salary bonus after it was 
discovered they had violated the study protocol, and the 
Inspector General said, ``Awarding the involved employees with 
monies and specifically praising their work on the lynx study 
so soon after the incident is not only an incredible display of 
bad judgment, but also highlight's FWS's''--Fish and Wildlife 
Service's--``excessively liberal award policy and practice 
which the OIG has criticized in the past.'' And that is a 
statement by Earl DeVaney, the Inspector General of the 
Interior Department.
    There seems to be--you know, the Federal Government has 
many, many, many good, dedicated, hardworking employees, but it 
seems to also have many employees who seem to feel or know that 
they can get away with almost anything, and that they don't 
suffer repercussions as they would if they were in the private 
sector. And I think that a lot of us--that there needs to be a 
lot more concern about that.
    I do have one question that the staff has asked that I ask, 
and I think it is an important question. What was the basis for 
the biologists not trusting the validity of the lab? Did they 
have some basis for mistrusting the lab?
    Mr. Malfi. One of the things that seemed to be a common 
thread was the Weaver study. They felt that the fact that the 
Weaver study in '98 came out with hits in areas where there was 
never any lynx known to be before, supported their belief that 
there was probably lynx in that area. Then when they got their 
1999 results back on the survey, which were all negative, I 
guess it started to raise some concerns about the--
    Mr. Duncan. So they were going to do whatever they needed 
to do to support that earlier study.
    Mr. Malfi. Well, I am not saying that.
    Mr. Duncan. But I understand that Dr. Weaver later recanted 
or changed some of his opinions from his '98 study.
    Mr. Malfi. Right. At the time when the results came out, 
were furnished to them, of their '99 survey, they didn't know 
at that time that the Weaver study was tainted, so they 
believed that it was an accurate study. How much concern? I 
have heard both sides of the coin on that.
    Some said that there was--the Weaver study raised a lot of 
concern. I have heard the fact that when the results of the 
Weaver study came out, that that raised concern because 
everyone knew that there were supposedly no lynx there, and all 
of a sudden the Weaver study has it, so that drew some people's 
concern about the Weaver study.
    The fact that the Weaver study had hits in it in '98, they 
didn't have hits in '99, raised concerns about their '99 
survey.
    Mr. Duncan. Mr. Chairman, my time is up. Let me simply say 
that we may need, if these agencies are not going to take 
appropriate action to reprimand people who falsify information 
and do other things that they definitely shouldn't do, perhaps 
we should include in legislation at some point requirements 
that these agencies discipline, in a significant, meaningful 
way, people who do things like this.
    Thank you very much.
    Mr. McInnis. Well, Mr. Duncan, they did take action. They 
gave them bonuses.
    Mr. Walden?
    Mr. Walden. Thank you very much, Mr. Chairman. I want to 
just put this back in focus on your report, make sure I 
understand it clearly. The people involved knew they did not 
have the authority to make these submissions, correct?
    Mr. Malfi. Correct.
    Mr. Walden. There were other alternatives for testing the 
lab and the protocols.
    Mr. Malfi. They knew that there was other alternatives.
    Mr. Walden. And they knew that, correct?
    Mr. Malfi. Correct.
    Mr. Walden. There was no procedure whereby the biologist 
who submitted the samples would receive preliminary data 
results back.
    Mr. Malfi. From the lab?
    Mr. Walden. From the lab.
    Mr. Malfi. That is correct.
    Mr. Walden. And so they, according to your report, they 
could never have known what happened to the data they 
submitted. Well, not never known. Let me rephrase that, because 
my point is, they submit this, it goes off into the lab and 
they don't get a preliminary report, so they don't know. They 
have sort of lost control of it at that point, haven't they?
    Mr. Malfi. That is correct.
    Mr. Walden. All right. And then you say none of the other 
biologists who made unauthorized submissions disclosed their 
actions until after the Forest Service commenced its 
investigation.
    My question is this, because I am not here to apologize for 
their actions. I find it reprehensible what these people did 
and how the agency has conducted itself. It is almost akin to, 
I remember the old ABSCAM deal. Remember Judge Kelly, after he 
took the money, I think he was down in Florida, patted himself, 
said, ``Does it show?'' And then when asked, when he got 
caught, he said, ``Oh, I was conducting my own investigation.''
    You know, it is equivalent to having Mohammed Attah, if he 
had gotten caught, say, ``Oh, I was just checking airline 
security.'' I mean, isn't the criminal mind like that in a way? 
After you are caught, you suddenly have a different view of 
what you were doing?
    You don't have to comment on that, but my question is this: 
What are the costs? How much have taxpayers spent for this 
fiasco? Did you look at any of that?
    Mr. Malfi. No, we didn't look into the cost of it.
    Mr. Walden. Is Dr. Weaver doing any other work for any 
other agency?
    Mr. Malfi. That I don't know of.
    Mr. Walden. Why are the names not public? Is that a 
prohibition somewhere? Do we know who these biologists are?
    Mr. Malfi. Well, it has been a long-standing policy of GAO 
that we don't put names of individuals in the public domain.
    Mr. Walden. Were there any laws broken by these 
individuals?
    Mr. Malfi. I would have to look and see. I didn't look into 
that end of it, to see if there was criminal prosecution or if 
there was Federal laws that were violated.
    Mr. Walden. Is that something the agency would look at?
    Mr. Malfi. Yes, the agency would look into that. The IG's 
office.
    Mr. Tom Udall. Would the gentleman yield?
    Mr. Walden. If I can get more time.
    Mr. Tom Udall. Mr. Chairman, just to clarify a point here, 
I mean, my understanding is, on the point you are asking, the 
Interior Department IG report was released on March 1, 2002, 
and stated that ``We found no evidence of criminal intent and 
prosecution was declined by the Justice Department. However, we 
did uncover a pattern of bad judgment, an absence of scientific 
rigor, and several troubling policy issues. In addition, parts 
of the story told by the FWS biologists stretch credibility.''
    That is to give you a little information.
    Mr. Malfi. Right. That helps. Thank you. I appreciate that, 
and I will, I will ask the agency about that.
    I guess I get back to your map too showed just Washington 
State, but my understanding is as part of the proposed listing 
of the lynx as threatened species, they listed 16 States 
including my own in Oregon, even though in 96 years there have 
only been 14 sightings, potential sightings of lynx. And so 
this isn't necessarily something you are doing, but to make it 
appear as though we are not affected, I can tell you on the 
ground we are affected because of lynx habitat issues related 
to all this discussion about whether or not there is lynx.
    Does the GAO have any further investigative ideas for us? 
Do you need to go further, based on what you found?
    Mr. Malfi. I believe the issue area is looking to certain 
policies and procedure issues in regards to not just the lynx 
case, but certain policy and issues I think that are conducted 
by maybe the Forest Service and the Department of Interior. We 
are from the Office of Special Investigations. We were called 
in to look at a specific case.
    Mr. Walden. I understand. I understand. All right.
    Well, as you can imagine, Mr. Chairman, out in our part of 
the world, when you start with this base science, every 
decision from there on is predicated on it, and there is 
virtually no way to ever go back and check it unless you have 
outside peer review. And that is where I wish my colleague and 
friend from Washington were still here, Mr. Inslee, because if 
there was ever a case for having outside peer review of data, 
this is it, and the situation in the Klamath Basin screams for 
an independent peer review to catch things like this and the 
decisions that were made in the Klamath Basic, which the 
National Academy of Sciences has since said were not predicated 
on sound science.
    Thank you, and thank you for the work your folks have done. 
Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Walden, I might add that I have the names 
of the individuals, which I would be happy to supply to you. I 
have received them from other sources outside the agency, and I 
intend to enter them into the record, commend them for their 
bonuses, maybe.
    Mr. Tancredo?
    Mr. Tancredo. No questions, Mr. Chairman. I hope we can get 
to the agencies, for which I have many questions.
    Mr. McInnis. Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Just briefly, do you have a sense--I am trying to wrestle 
with the issue. Being from Maryland, I don't get heavily 
involved in the issues that take place in the Western States, 
although I hope as we go through this process, as Mr. Walden 
has said, talking about peer review of a great deal of 
research, good peer review, so that we can figure out a way to 
preserve habitat for us and the lynx. I would hate to be the 
last generation to know that there were lynx somewhere out 
there in the distant past.
    The samples that were submitted to the lab, from what you 
understand now, what was the purpose for submitting those 
samples to the lab?
    Mr. Malfi. Of all the samples?
    Mr. Gilchrest. The biologists submitted these unauthorized 
samples. The lab didn't know they were unauthorized, I guess.
    Mr. Malfi. That is correct.
    Mr. Gilchrest. What was the purpose of the biologists 
submitting the unauthorized samples to the lab?
    Mr. Malfi. Well, we didn't uncover what their exact 
motivation was. They told us it was to test the laboratory. 
There are other factors that could lead to, you know, possibly 
the other side of the coin. We don't know what their motivation 
was. We just looked at the facts and tried to get the evidence 
together as to exactly what happened.
    Mr. Gilchrest. You said earlier, at least I thought you 
said that the possible, one of the possible outcomes of these 
unauthorize submissions would have been an expansion of the 
study area for the habitat of the lynx.
    Mr. Malfi. That is correct. From what I understand, the 
protocols for the National Lynx Survey is that if hairs were 
found in an area that there was no known lynx, that this would 
kick in the second phase of an investigation that would 
encompass things like snow tracking and other means.
    Mr. Gilchrest. This might be a question for the next panel, 
but is there, if you don't find any hair samples, let's say, 
for example, and they did not or would not submit unauthorized 
samples to the lab, was there any other method that your are 
aware of that they could have expanded the study area for the 
habitat for the lynx without doing what they did?
    Mr. Malfi. You mean, you are saying is there anything else 
that would kick the second phase of a larger investigation in, 
except for the--
    Mr. Gilchrest. Well, not an investigation necessarily, and 
this might be for the next witness. I was just wondering, do 
biologists have an alternative approach to expanding an area 
for study, rather than finding samples of what they want to 
study there?
    Mr. Malfi. I don't know that.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Pombo?
    Mr. Pombo. Thank you, Mr. Chairman. Just to follow up on 
Mr. Gilchrest's question, the area was being studied.
    Mr. Malfi. That is correct.
    Mr. Pombo. You know, they were studying the area. What they 
were doing was, they were attempting to justify that the lynx 
were there. I know you are not coming to that conclusion--
    Mr. Malfi. Yes, I can't go to that conclusion.
    Mr. Pombo. --but they were studying the area. It is not 
that they were just trying to be good soldiers and look at a 
different area. They were studying it.
    Let me ask you this. You said that several or a couple of 
these guys told their supervisors that they had submitted false 
samples. Why did their supervisors not do anything about it at 
that point?
    Mr. Malfi. From what I can remember, one of the supervisors 
felt that the '99 sample, it was bobcat hair, came back as ``no 
qual,'' I guess in their mind they justified that it didn't 
really do anything with the survey one way or the other, so 
they decided not to make it known.
    Some of the other people that were at the time in a 
supervisory position did not know that--and these people didn't 
go in and ask for permission, like ``Can I do this?'' It was 
like, ``I'm going to do this,'' and these people weren't 
familiar with the protocols or the survey, and they assumed 
that this was just--
    Mr. Pombo. Let me stop you. Did they say, ``I'm going to do 
this'' or ``I did this''?
    Mr. Malfi. Well, in one of the cases the person, the 
supervisor, did not know when it took place. But in recounting 
her statements, what the fellow told her was that ``I am 
sending these samples in,'' so you have to assume that maybe it 
was before he sent them in.
    When we spoke to that person, they recanted and said, ``I 
never asked for permission, and I told my supervisor after I 
sent them in.'' So we went back to the supervisor. They still 
were unclear as to when it took place. But the other person 
that stated that they advised their supervisor, that person 
didn't know about the protocols.
    Mr. Pombo. They didn't know about the protocols, so from 
what you are telling me, I would assume that they weren't sure 
if it was OK to submit false data?
    Mr. Malfi. That is correct. They didn't know--
    Mr. Pombo. You are kidding, right?
    Mr. Malfi. Excuse me?
    Mr. Pombo. You are kidding, right?
    Mr. Malfi. No, they did not realize that a false submission 
was not part of a protocol. Some protocols, from what I 
understand, have built in, at the beginning of the survey, ways 
that you can send in a control sample to the laboratory. 
Sometimes you can send them in, sometimes you can't, but 
whatever the situation is, from what I have been told, it has 
to be established up front.
    Protocols for this survey, it was established that there 
were going to be no test samples sent in. Some other surveys 
may allow for test samples. The person that was in a 
supervisory position wasn't aware of the protocols, that you 
couldn't send them in, so therefore when they heard that the 
employee was sending it in, it didn't raise a red flag to them.
    Mr. Pombo. I find that interesting, that the supervisors 
didn't raise a red flag when they said that they were 
submitting false samples. But as part of this you stated that 
you are not aware of any reason why they would have been 
testing the lab, that there were no problems that you are aware 
of with the particular lab that would lead them to believe that 
they should proceed with this kind of false sample.
    Mr. Malfi. We didn't pull back all the layers concerning 
the lab itself. What we did was, we interviewed the people that 
were involved in these submissions and some of their 
supervisors, and we found that there was a tone amongst some of 
these biologists that they had some skepticism about the lab. 
When we spoke to the people at the lab, we raised this, and 
they were aware of it.
    And they said, ``Look, bottom line is, if anybody really 
had a problem, I would have walked them through the stages, put 
their concerns at ease. I have tested these things. I know that 
the protocols are accurate. No one came to me and asked me to 
do this, nor did anybody officially from either agency come to 
me and say, hey, we hear there's a problem. Let us, you know, 
put this at ease and walk us through the system.''
    So were there any legitimate concerns about the lab being 
not able to do their work? We didn't look into that. We didn't 
look into, you know, how good they were able to do their job. 
This is based upon what people told us that were involved in 
the scenario.
    Mr. Pombo. Thank you, Mr. Chairman.
    Mr. McInnis. Thank you. Mr. Malfi, Mr. Sullivan, I 
appreciate the time you have given us today. In consideration 
of the quick period of time you had to put this investigation 
together, I think you have done a commendable job,so thank you 
for your testimony.
    Mr. Malfi. Thank you.
    Mr. McInnis. We will now call our second panel up. The 
Honorable Mark Rey, who is the Under Secretary of the USDA, 
Natural Resources and Environment; and Steven Williams, Ph.D., 
Director, U.S. Fish and Wildlife Service, Department of 
Interior. And by the way, for the panel's interest, Mr. 
Williams has been on the job for exactly 1 month, so this is 
probably his first appearance before our panel. I offered him 
some Tylenol but he thought he could handle it. They will also 
be accompanied by Tom Thompson, who is the Deputy Chief, 
National Forest System.
    Mr. Rey, why don't you start us out, and then we will go to 
Mr. Thompson.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE, ACCOMPANIED BY 
  TOM L. THOMPSON, DEPUTY CHIEF, NATIONAL FOREST SYSTEM; AND 
 STEVEN A. WILLIAMS, DIRECTOR, FISH AND WILDLIFE SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Rey. Thank you. Mr. Chairman and members of the 
Committee, and thank you for the opportunity to appear today 
along with Tom Thompson, to my left, and Dr. Kevin McKelvey, an 
research scientist at the Forest Service's Rocky Mountain 
Research Station. Dr. McKelvey will appear on a later panel, 
but he will also be available to assist us in responding to 
questions.
    I would like to defer initially to Mr. Thompson to review 
the circumstances that bring us here today, and then I will 
offer a few brief concluding remarks prior to Mr.Williams, so 
as to not unnecessarily delay the expected horsewhipping. 
Before, however, we turn to Mr. Thompson, I suppose you were 
going to tell me you have got a vote here.
    [The prepared statement of Mr. Rey follows:]

   Statement of Mark Rey, Under Secretary for Natural Resources and 
              Environment, U.S. Department of Agriculture

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to appear before you today along with 
Mr. Tom Thompson, Deputy Chief for National Forest Systems of the 
Forest Service and Dr. Kevin McKelvey, Research Scientist at the Forest 
Service's, Rocky Mountain Research Station. Dr. McKelvey will also 
offer testimony on a later panel.
    I would like to defer to Mr. Thompson to review the circumstances 
that bring us here today. Then I will offer a few brief, concluding 
remarks so as to not unnecessarily delay the expected horsewhipping. 
Mr. Thompson, Dr. McKelvey, and I will be available to respond to 
questions.
    The events described by Mr. Thompson have engendered considerable 
consternation. They present us with specific management challenges that 
we will meet. More broadly, however, they raise two serious questions 
which go beyond the facts of this particular event.
    First, the events described by Mr. Thompson achieved such resonance 
because they apparently ratify a suspicion held by some about the use 
of scientific information in resources decision-making--that is, 
information is manipulated under the guise of dispassionate expertise 
to achieve desired, or even predetermined, outcomes. This did not occur 
in this instance, but the rush to judgment that it did should serve as 
a warning signal to us.
    Second, these events highlight a myth that has grown up in the 
midst of natural resources decision-making. The myth is that ``good 
science'' can, by itself, somehow make difficult natural resource 
decisions for us, and relieve us of the necessity to engage in the hard 
work of democratic deliberations that must finally shoulder the weight 
of those decisions.
    In the case of endangered species issues, this myth has been, in my 
opinion, carried to an extreme. There is a perception that a limited 
number of people, with similar or identical expertise, and without much 
outside scrutiny, use sometimes extremely limited scientific data--even 
though they may be the best data available--to render decisions. These 
decisions trigger legally automatic results that, increasingly, have 
sweeping social and economic impacts.
    It would be counterproductive to dwell on the facts of this 
specific case without trying to learn how to use science more wisely in 
the complex political milieu that surrounds issues like endangered 
species recovery. Rather than meeting out punishment, the broader 
management challenge is to enlist biologists as partners in developing 
policy and gaining congressional and public support for federal land 
management decisions.
    A second challenge is one that we must share--that is, to review 
and streamline the entire natural resources decision-making process, 
with scientific accuracy, accountability, accessibility, trust-
building, and efficiency as our goals. This will also give higher value 
to the knowledge of scientists as we apply their expertise in real-time 
decisions.
    These are problems that the Chief of the Forest Service and I have 
acknowledged before this committee, and are committed to working with 
the committee to resolve.
    Thank you.
                                 ______
                                 
    Mr. McInnis. Well, what we are going to do is, we don't 
have to leave for 10 minutes, but we have a 15-minute vote 
following the first vote, which means when we do leave we are 
going to be gone about 25 minutes. So if you could keep it 
within our 5-minute time allotment, we can cover both of you 
and then recess for 20 minutes or so, and then come back and 
start again. So if we can keep it as brief as possible, it is 
helpful.
    Mr. Thompson?

  STATEMENT OF TOM L. THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
                             SYSTEM

    Mr. Thompson. Thank you, Mr. Chairman and members of the 
Committee, for this opportunity to appear before you today to 
talk about the National Canada Lynx Survey. My name is Tom 
Thompson, Deputy Chief, National Forest System, Forest Service.
    In late September 2000, a Forest Service employee called 
the lynx survey coordinator to report that he and some co-
workers on the Gifford Pinchot National Forest had sent an 
unauthorized hair sample to the survey coordinator. The stated 
purpose was to test the DNA process for detecting lynx.
    A subsequent investigation by the Forest Service revealed 
that three of the agency's employees were involved. The 
investigation also determined that two additional unauthorized 
samples of lynx hair were submitted by two U.S. Fish and 
Wildlife and two Washington State Department of Fish and 
Wildlife employees, and labeled as having come from the 
Wenatchee National Forest.
    These actions have threatened the credibility of the Forest 
Service and other science-based agencies. Under the leadership 
of Chief Dale Bosworth, the Forest Service has acted 
aggressively to sort out what happened, to identify problems, 
to restore its integrity, and to assure that information 
associated with the National Lynx Survey is sound.
    Because of its conservation status and a proposal to list 
lynx as threatened species in 1998, there was a group of 
internationally recognized scientists specializing in lynx 
biology and ecology that did an analysis and summarized the 
best scientific information about lynx. With their knowledge, 
they put together four separate documents, a Lynx Science 
Report, a Lynx Conservation Assessment, a Lynx Conservation 
Agreement, and Lynx Biological Assessments.
    The Fish and Wildlife Service issued a final rule to list 
the lynx as threatened under the Endangered Species Act on 
March 24th, 2000. Primarily, this was because of the inadequacy 
of existing regulatory mechanisms, specifically the lack of 
guidance for lynx conservation in our Federal land management 
plans.
    Since then, planning efforts have begun to incorporate the 
lynx conservation measures into forest plans. All the 
amendments and revisions propose management direction for lynx, 
and are based upon conservation measures recommended by the 
Lynx Conservation Assessment and Strategy.
    The National Lynx Survey is being used to document current 
distributions of lynx, and will be used to refine habitat 
mapping, because we recognize that all potential habitat is not 
occupied. In 1999, the Forest Service began this 3-year 
nationwide survey of habitat to better identify the presence or 
absence of lynx or lynx populations. Dr. McKelvey will describe 
this effort on the next panel.
    Following the Forest Service investigation, a number of 
actions have taken place. Forest Service employees responsible 
for submitting the unauthorized samples, except for the retired 
employee, have been made aware of the seriousness of their 
actions. None of the employees involved in submitting 
unauthorized samples from the three agencies have been allowed 
to participate in any more lynx survey efforts.
    When Chief Bosworth became aware of the unauthorized 
samples, and in light of the continuing questions about the 
survey, he asked the USDA Inspector General to look more fully 
into the allegations of the unauthorized samples. That ongoing 
investigation, which is still ongoing, may ultimately indicate 
that further action is warranted by agency managers.
    The Chief recently directed that the already existing 
Forest Service Code of Scientific Ethics be applied to all 
Forest Service employees, agency partners, and cooperators who 
participate in research funded with Federal research 
appropriations. The administration and the Congress have been 
adamant that information collected and used by the Federal 
Government should be top quality. The importance of 
professional conduct and ethical behavior is being emphasized 
with employees at meetings and in training modules.
    The research scientists did not include the unauthorized 
hair samples in survey data. Based on these factors, the 
research scientists believe that they can verify the scientific 
authenticity of the National Lynx Survey. Let me be clear: The 
unauthorized samples have been excluded from the survey.
    In summary, Mr. Chairman, we know unauthorized samples were 
inappropriately submitted by employees. We know that the 
integrity of the National Lynx Survey has been questioned. 
However, the scientists believe that the study remains valid. 
No land management plans have changed because of the 
unauthorized lynx hair samples. The Forest Service Code of 
Scientific Ethics now applies to all Forest Service employees, 
partners, contractors, that work on Forest Service research.
    We regret this incident and the actions of a few agency 
employees. Although the unauthorized samples were detected and 
did compromise the validity of the lynx survey, such situations 
call into question the Forest Service integrity. The Forest 
Service is a science-based organization, and any efforts to 
collect information and data and communicate that resource 
information must be conducted to professional and ethical 
standards of the highest order and within established 
scientific protocols.
    Mr. Chairman, that concludes my statement.
    [The prepared statement of Mr. Thompson follows:]

  Statement of Tom L. Thompson, Deputy Chief, National Forest System, 
                     U.S. Department of Agriculture

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to appear before you today to talk 
about the National Canada Lynx Survey. My name is Tom Thompson, Deputy 
Chief National Forest System, Forest Service. Today, I am accompanied 
by Kevin McKelvey, Research Scientist at the Forest Service's Rocky 
Mountain Research Station, who developed protocols for the National 
Lynx Survey and who will testify on a later panel.
    In late September, 2000, a Forest Service employee called the lynx 
survey coordinator to report that he and some co-workers from the 
Gifford Pinchot National Forest sent an unauthorized lynx hair sample 
to the survey coordinator. The stated purpose was to test the DNA 
process for detecting lynx. A subsequent investigation by the Forest 
Service revealed that three of the agency's employees were involved. 
The investigation also determined that two additional unauthorized 
samples of lynx hair were submitted by two U.S. Fish and Wildlife 
Service and two Washington State Department of Fish and Wildlife 
employees, and labeled as having come from the Wenatchee National 
Forest. A number of other employees of the three agencies knew about 
the activities but did not report them.
    These actions have threatened the credibility of the Forest Service 
and of other science based agencies. Under the leadership of Chief Dale 
Bosworth, the Forest Service has acted aggressively to sort out what 
happened and identify problems, to restore its integrity, and to assure 
that information associated with the National Lynx Survey is sound. 
Today, I would like to give you background about the lynx, describe the 
lynx conservation efforts underway, and describe the design of the 
National Lynx Survey. Lastly, I will touch on the ongoing 
investigations and actions that have been taken to date.
Background
    The Canada lynx is a medium sized member of the cat family, noted 
for having long ear tufts and large feet that are highly adapted for 
hunting in deep snow. Lynx feed primarily on snowshoe hares, a type of 
rabbit.
    The historical range extends from Alaska across much of Canada, 
with the southern extensions into parts of the northwestern United 
States, the Great Lake states, and New England. Within the contiguous 
United States, the distribution of lynx is associated with subalpine 
coniferous forests in the West and primarily mixed coniferous/deciduous 
forests in the Great Lakes and East. Lynx habitat occurs primarily on 
National Forest System and Bureau of Land Management lands in the West, 
and lynx has been a rare species for several decades.
Lynx Conservation
    Because of its conservation status, and a proposal to list lynx as 
a threatened species in 1998, land managers and scientists realized 
that there was a pressing need to know more about the ecology of the 
lynx. A group of internationally recognized scientists specializing in 
lynx biology and ecology did an analysis and summarized the best 
scientific information about the lynx. A team of Forest Service, Bureau 
of Land Management, Fish and Wildlife Service and National Park Service 
managers and researchers convened to identify how to better manage for 
the conservation of lynx on federal lands. The effort also included 
representatives of state fish and wildlife agencies. They reviewed the 
state of knowledge on lynx and developed a management strategy for 
federal lands based on the best available science. This effort has 
produced several important documents: the Lynx Science Report, Lynx 
Conservation Assessment and Strategy, Lynx Conservation Agreement, and 
Lynx Biological Assessment.
    The Fish and Wildlife Service issued the final rule to list the 
lynx as threatened under the Endangered Species Act on March 24, 2000, 
primarily because of the inadequacy of existing regulatory mechanisms, 
specifically the lack of guidance for lynx conservation in federal land 
management plans. On February 7, 2000, and August 22, 2000, 
respectively, the Forest Service and the Bureau of Land Management 
signed conservation agreements with the Fish and Wildlife Service to 
guide interagency lynx conservation efforts through 2004. Among other 
actions, under the Forest Service-Fish and Wildlife Service Lynx 
Conservation Agreement, the Forest Service agreed that Forest Plans 
should include measures necessary to conserve lynx for all forests that 
have lynx habitat. Development of such measures would include 
consideration of the Lynx Science Report, the Lynx Conservation 
Assessment and Strategy and the Fish and Wildlife Service's listing 
decision. Any necessary changes in these plans would be made through 
amendment or revision.
Land Management Plans
    Planning efforts have begun to incorporate the lynx conservation 
measures into Forest Plans. Forest Plan amendments or revisions are 
scheduled for national forests in Washington, Oregon, Idaho, Montana, 
Wyoming, Utah, Colorado, Minnesota, Michigan, Wisconsin, New York, 
Vermont, and New Hampshire, and for BLM units in Idaho and Utah. All of 
the amendments and revisions propose management direction for lynx and 
are based on the conservation measures recommended in the Lynx 
Conservation Assessment and Strategy.
    The on-going amendments and revisions are at different stages. Most 
units have completed the initial public scoping and are preparing 
environmental documents. Draft analysis documents are being prepared 
for public review and comment. Some decisions are expected this year. 
The remaining forests and BLM units will likely begin amendment or 
revision in the next couple of years.
    The National Lynx Survey is being used to document current 
distributions of lynx and will be used to refine habitat mapping, 
because we recognize that all potential lynx habitat is not occupied. 
The results of the survey will increase our knowledge about the current 
distribution of lynx but will not directly affect the ongoing plan 
amendment or revision process.
1999-2002 National Canada Lynx Survey
    In 1999, the Forest Service began a three-year nationwide survey of 
habitat to better identify presence and absence of lynx or lynx 
populations. Dr. McKelvey will describe this effort in more detail in 
the next panel. This survey is based on peer reviewed and published 
research. The protocols included standards for training in field 
methods, standards for field data collection, and standards for the DNA 
analysis of hair samples to determine the hair was from lynx or from 
another species. The Carnivore Conservation Genetics Laboratory on the 
University of Montana campus in Missoula, Montana, developed the DNA 
protocols. Dr. L. Scott Mills, who will testify later today, heads the 
Missoula Lab.
    The research scientists designed the survey protocols using a 
systematic approach described in the Lynx Science Report and in other 
peer reviewed journals. The first step is to ascertain current 
distribution by means of presence/absence surveys. If lynx presence is 
detected in an area, the next step is to find out what the presence 
means: it could be a pet, a fur-farm escapee, or a lone wild lynx 
passing through the area. To separate out these situations from those 
of a resident lynx population, research scientists follow-up by 
conducting intensive snow track surveys, designed and run by Dr. John 
Squires who is currently conducting a large radio telemetry study of 
lynx in Montana. If the unauthorized samples had not been identified, 
the follow-up protocols would have been used to find out if lynx were 
present.
    Lynx hairs have been found in only two areas where we did not know 
lynx occurred. These two areas were in the Boise and the Shoshone 
National Forests. As the survey protocols require, research scientists 
are doing follow-up intensive snow tracking in these areas to help 
determine the extent and significance of the lynx occurrences.
Forest Service Investigation of the National Lynx Survey and Follow-up 
        Actions
    Following the Forest Service investigation, a number of actions 
have taken place. Forest Service employees responsible for submitting 
unauthorized samples (except the now retired employee) have been made 
aware of the seriousness of their actions by their Forest Service 
supervisors. None of the individuals involved in submitting 
unauthorized samples from the three agencies has been allowed to 
participate in the 2001 and future portions of the 1999-2002 lynx 
survey effort.
    When Chief Bosworth became aware of the unauthorized samples, and 
in light of continuing questions about the survey, he asked the USDA 
Inspector General to look more fully into the allegations of 
unauthorized samples. The Department of the Interior's Inspector 
General and the General Accounting Office (GAO) also are looking into 
this issue. The ongoing investigations may ultimately indicate that 
further action is warranted by agency managers.
    The Chief recently directed that the already existing Forest 
Service Code of Scientific Ethics be applied to all Forest Service 
employees, agency partners, and cooperators who participate in research 
funded with Federal research appropriations. The Administration and 
Congress have been adamant that the information collected and used by 
the Federal Government be top-quality. The importance of professional 
conduct and ethical behavior is being emphasized with employees at 
meetings and as part of training modules.
    The research scientists did not include the unauthorized hair 
samples in the survey data. They also reviewed the field notes for 
anomalies. Other than the Boise and Shoshone samples, no other lynx 
were identified outside known areas and, as mentioned earlier, follow-
up survey protocols are being used. Based on these factors, the 
research scientists believe they can verify the scientific authenticity 
of the National Lynx Survey. Let me be very clear: the unauthorized 
samples have been excluded from this survey.
Summary
    In summary, Mr. Chairman, we know unauthorized samples were 
inappropriately submitted by employees. The integrity of the National 
Lynx Survey has been questioned. However, the scientists believe the 
study remains valid. No land management plans have been changed because 
of the unauthorized lynx hair samples. Three investigations are 
underway. The Forest Service Code of Scientific Ethics now applies to 
all Forest Service employees, partners, and contractors that work on 
Forest Service research. I regret this incident and the actions of a 
few agency employees. Although the unauthorized samples were detected 
and did not compromise the validity of the lynx survey, such situations 
call into question the Forest Service's integrity. The Forest Service 
is a science-based organization, and ANY efforts to collect, analyze, 
display, communicate, and use species or other resource information 
must be conducted to professional and ethical standards and within 
established scientific protocols.
    Mr. Chairman and members of the Committee, this concludes my 
statement. We would be happy to answer any questions you might have.
                                 ______
                                 
    Mr. McInnis. It appears that we are going to push the clock 
too close, so Dr. Williams, we will come back. I am sorry we 
have to do that.
    But, Mr. Thompson, let me just say I appreciate your strong 
statement, but I am still bewildered, and I will come back and 
ask you or Mr. Rey, but I am still bewildered why, when you say 
that this is an egregious act against the integrity of the 
Forest Service, that these employees received a lecture and a 
bonus, a pay increase. So we will come back to you, Mr. Rey.
    Mr. Rey. We will address that after we come back.
    Mr. McInnis. OK. We will be in recess 15 or 20 minutes.
    [Recess.]
    Mr. McInnis. The Committee will come back to order.
    Dr. Williams, we will go ahead and proceed with you, with 
your opening statement, and then we will go to questions. We 
will ask questions of the panel all at once.
    Mr. Rey. Mr. Chairman, with your indulgence, I was actually 
going to conclude the Forest Service statement, if that is all 
right.
    Mr. McInnis. Well, we need to, I am trying to get it so the 
third panel can be heard from. If you can wrap it up in less 
than a minute, otherwise, I have got to move on because I would 
guess that this Committee is going to have to adjourn by 1 
o'clock.
    Mr. Rey. Well, let me just wrap it up by saying this, that 
the events, the specific events described by GAO and reflected 
on by Mr. Thompson present us with specific management 
challenges which we will meet. But, more broadly, I think they 
raise some serious questions which go beyond the facts of the 
event. Those are included in my written statement for the 
record, and we can talk about those when you get to the 
questions. Thank you.
    Mr. McInnis. All right, and Mr. Rey, I would like to talk 
about that. I would like you to continue that in the question 
and answer session.
    OK, Dr. Williams, you may proceed.

 STATEMENT OF STEVEN L. WILLIAMS,  DIRECTOR, FISH AND WILDLIFE 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Williams. Thank you, Mr. Chairman, and I appreciate the 
opportunity to appear before the Committee to discuss the 
submission of an unauthorized sample during population surveys 
for Canada lynx. This matter came to the attention of the 
Secretary of the Interior in December, and she immediately 
asked the Department's Inspector General to investigate the 
matter. The details have been provided to you, we all heard 
today, by the General Accounting Office.
    I would say, though, that I have no first-hand knowledge of 
this matter, having taken office on February 6, 2002. I would, 
however, like to provide my first impression of the events 
surrounding this situation, based on a limited review of the 
report received from the Department's Inspector General and 
from a discussion with the General Accounting Office, which 
both occurred last Friday afternoon.
    I first became aware of this situation in December, while 
in my previous position as Secretary of the Kansas Department 
of Wildlife and Parks, and while I was awaiting confirmation by 
the Senate. As a scientist and a natural resource manager, I 
was deeply concerned and disturbed by what I heard.
    I am very aware of the critical importance of quality 
science as a foundation for the Service's activities and 
decisions, and as a Ph.D. biologist I am familiar with what 
constitutes quality science and proper research procedures. I 
am also deeply aware of the obligation of a public agency to be 
trustworthy in carrying out its responsibilities.
    The submission of an unauthorized ``test'' sample was a 
breach of survey protocol and a demonstration of a lack of 
scientific rigor and professionalism by these two individuals, 
and therefore was inappropriate and unacceptable. While the 
actions of these individuals have caused the public to doubt 
the overall credibility of the agencies' science, I do want to 
point out that this is not an example of bad science by the 
agencies. Instead, it is bad conduct by the individuals 
involved. This is a crucial distinction which we should keep in 
mind in evaluating this situation.
    Because of the importance of science to both the perception 
and the reality of our activities, particularly with regards to 
the Endangered Species Act, the Fish and Wildlife Service has 
adopted a set of principles to guide the administration of ESA 
activities. These are detailed in my formal statement to the 
Committee. These policies have established a solid framework 
within which scientifically based decisions can be made under 
the ESA.
    In recent past, the National Academy of Science has been 
asked to examine three Service scientific decisions under ESA. 
They validated the biological opinion on the Missouri River and 
the science behind the listing of the Atlantic salmon, but 
found a lack of scientific justification for a major element of 
the biological opinion on the operation of the Klamath project.
    These evaluations show the Service does conduct sound 
science work and generally makes scientifically valid 
decisions. However, in this context ``generally'' is not good 
enough. Our goal must be ``always.'' I want to share with you 
today my commitment as a new Director of the Fish and Wildlife 
Service to provide the leadership, training, resources, and 
discipline to ensure and enforce high standards of scientific 
integrity and ethics in addressing the Service's 
responsibility.
    While the restoration of scientific credibility was not a 
challenge I anticipated when I accepted the President's offer 
to head this agency, it is the challenge now before me and it 
is top priority. In my first message to all Fish and Wildlife 
Service employees upon taking office, I stressed this issue, 
stating, ``I am confident that the Service will be able to rise 
to the challenge of restoring its scientific credibility, which 
has been called into question by recent events. As a biologist, 
I know that sound natural resource management decisions must be 
based on sound science. At the Service, managers are required 
to rely on the best available science to administer the laws we 
are charged with upholding.''
    I have already taken a number of actions, and others are 
underway, again as detailed in my formal statement you will 
find on pages 4 and 5. On February 12th we issued a Director's 
Order which requires all employees who are involved in 
scientific studies or investigations to adhere strictly to 
established scientific protocols, and informing employees that 
acting outside of those protocols would result in disciplinary 
action, including termination.
    We will bring external science expertise to bear on the 
design and conduct of our scientific studies as well as review 
of the final product. I will be asking the advice of respected 
Fish and Wildlife management professionals, from academia, from 
the States, and from the private sector.
    Last, the Secretary and I must take the time to fully 
analyze the Inspector General's report which we received, as I 
mentioned, last Friday, March lst, and the report of the 
General Accounting office, before making determinations as to 
how best to implement the IG's recommendations, and whether 
actions beyond those I have described here and in my formal 
statement are needed. We will report back to you on this in the 
near future.
    With help from the Secretary and from Congress, including 
continuing oversight to ensure we perform as promised, I am 
confident we will improve the public's trust in the Fish and 
Wildlife Service as an objective and scientifically based 
steward of our Nation's natural resources.
    This concludes my prepared remarks, and I would certainly 
be pleased to try to respond to any questions you might have.
    [The prepared statement of Mr. Williams follows:]

   Statement of Dr. Steven A. Williams, Director, Fish and Wildlife 
                Service, U.S. Department of the Interior

    Mr. Chairman, I appreciate this opportunity to appear before the 
Committee to discuss the role of Fish and Wildlife Service (Service) 
biologists in the incident involving the submission of unauthorized 
samples for genetic testing during population surveys for the Canada 
lynx in National Forests in Washington State.
    As you know, this matter involves action by two Service biologists, 
three Forest Service personnel, and two State employees who submitted 
unauthorized lynx hair samples to the lab charged with analyzing those 
samples. This incident came to the attention of the Secretary of the 
Interior in December 2001, and she asked the Department's Inspector 
General to investigate the matter. The General Accounting Office and 
Inspector General of the Department of the Interior have provided the 
details to you.
    Last Friday I received a briefing by the Inspector General's office 
and a copy of their report. I am relying on that briefing and report 
for information as to exactly what occurred. Having taken office 
February 6, 2002, I have no personal knowledge of this matter.
    I am acutely aware of the critical importance of quality science as 
a foundation for the Service's activities and decisions. As a Ph.D. 
biologist, I am familiar with what constitutes quality science and 
proper research procedures. I am also deeply aware of the obligation of 
a public agency to be trustworthy in carrying out its responsibilities. 
The submission of an unauthorized ``test'' sample was not provided for 
in the survey protocol and, therefore, was inappropriate and 
unacceptable.
    While the actions of these individuals have caused the public to 
doubt the overall credibility of the agencies' science, I want to point 
out that this is not an example of bad science by the agencies 
involved; instead it is bad judgment by the individuals involved. This 
is a crucial distinction which must be kept in mind in evaluating this 
situation. Therefore, I am reviewing the disciplinary actions that were 
taken against the employees and I am analyzing the Inspector General's 
recommendations for further disciplinary action.
    Based on the information received from the Department of Interior's 
Inspector General and from a discussion with the General Accounting 
Office, here is my understanding of the events surrounding this 
situation. Certain biologists from the three agencies questioned the 
lab's ability to accurately identify species using DNA testing of hair 
found in the wild.
    In 2000, these doubts led the two Service biologists to ``test'' 
the system by submitting unauthorized samples for DNA analysis. The 
survey protocol did not include provisions for the submission of 
``test'' or ``blind samples.'' Therefore, this decision was outside of 
the survey protocol, was not reviewed by supervisors of the survey, and 
was not approved by the survey field coordinator, and the lab 
conducting the DNA analysis. As I noted above, this is not bad science 
by the agencies. Instead, these were misguided actions taken by two 
Service biologists; a breach of survey protocol and a demonstration of 
a lack of scientific rigor and professionalism by these two 
individuals. In essence, there was a disconnect between the involved 
biologists in the field and the lab conducting the analysis.
    The distrust or concern should never have occurred because the lab 
had verified its analysis at an independent lab prior to conducting its 
work. This information should have provided field biologists with 
confidence in the lab's ability to successfully identify species, 
obviating a need to secretly test the lab.
    Irrespective of the poor judgement demonstrated by these 
biologists, the sample submission would not have altered land 
management decisions on the National Forest. The reason is that the 
``test'' sample, which was secured from a captive lynx, was identified 
as having originated from an area within the Wenatchee National Forest 
previously identified as occupied by lynx. However, even if the 
``test'' sample were to have been identified as originating from an 
area not known to be occupied by lynx, further surveys and analyses 
conducted by interagency employees and input from the general public 
would have been conducted prior to delineating the area as 
``occupied.''
    Because of the importance of science to both the perception and the 
reality of our activities, particularly with regard to the Endangered 
Species Act (ESA), the following principles must guide the Fish and 
Wildlife Service's administration of ESA activities: ensure that our 
decisions are based on the best available science; seek independent 
peer review of our decisions where possible; provide for public 
participation throughout our decision process; and ensure that our 
decision process is understandable and transparent. These principles 
were published at various times in the federal register. I will provide 
you with copies of these notices at your request.
    I can assure you that now that I have been confirmed, these 
principles and policies will be fully put into practice. Having spent 
16 years working in state fish and wildlife agencies, I have a deep 
appreciation and respect for state employees who possess the scientific 
expertise and understanding of local issues.
    These policies have established a solid framework within which 
scientifically based decisions can be made under the ESA. Recently, the 
National Academy of Science (NAS) was asked to examine three of our 
scientific decisions made as part of biological opinions under the ESA. 
The NAS validated the biological opinion on two of those decisions, but 
found a lack of scientific justification for a major component of the 
biological opinion on the operation of the Klamath Project. While these 
examples are too few to make generalizations about our accuracy rate, 
we believe that the Service generally uses sound science in its work 
and uses the products of that science to make scientifically valid 
decisions. However, in this context ``generally'' is not good enough; 
our goal must be ``always.'' Where that soundness and excellence has 
been compromised, we will address it.
    As stated earlier, due to the serious nature of the incident, the 
Secretary requested that the Inspector General conduct an 
investigation. The Inspector General completed his investigation and 
issued a report that recommends four actions:
    1. LThat the Secretary ask the Department's Chief scientist to 
convene a workgroup consisting of internal and external scientists to 
(a) review and make recommendations on how to restore rigorous science 
to the Endangered Species Program and (b) to design and implement a DOI 
Scientific Code of Ethics;
    2. LThat the Office of the Inspector General accelerate its 
scheduled review of DOI's conduct and discipline process;
    3. LThat the Office of the Inspector General conduct a follow-up 
audit of FWS's monetary incentive awards program to determine if 
previous OIG recommendations have been implemented; and
    4. LThat the Director of FWS revisit the issue of administrative 
action in this matter with a view towards considering (a) more 
meaningful punishment for those previously counseled, and (b) 
administrative action against additional FWS employees at the Region 
and Headquarters.
    The Secretary and I will fully analyze the Inspector General's 
report, which was transmitted to us last Friday, and the report of the 
General Accounting Office, before making any determinations on how to 
best implement the Inspector General's recommendations.
    Today, I want to share with you Secretary Norton's and my 
commitment to provide the leadership, guidance, training, resources, 
and discipline to ensure and enforce high standards of scientific 
integrity and ethics in addressing the Service's responsibilities.
    While the restoration of scientific credibility was not a challenge 
I anticipated when I accepted the President's offer to head this 
agency, it is the challenge now before me, and it is my paramount 
priority.
    In my first message to all Fish and Wildlife Service employees upon 
taking office, I shared my focus and commitment to science, stating in 
part:
        I am . . . confident that the Service will be able to rise to 
        the challenge of restoring its scientific credibility, which 
        has been called into question by recent events. As a biologist, 
        I know that sound natural resource management decisions must be 
        based on sound science. At the Service, managers are required 
        to rely on the best available science to administer the laws we 
        are charged with upholding.
    I am in the first stage of this initiative, but it is one that will 
dominate my agenda as Director and my leadership of the bureau. I have 
developed a multi-faceted approach to address this issue. Key elements 
include:
                   performance and conduct standards
    <bullet> LWe have developed personnel standards which specify 
disciplinary consequences for inappropriate or unacceptable behavior 
related to science. On February 12, a Director's Order was issued 
concerning ``Disciplinary Action for Unauthorized Activities in the 
Course of Scientific Studies or Investigations.'' Key components of 
this Order include:
        * LRequiring all employees who are involved in scientific 
studies or investigations to adhere strictly to established scientific 
protocols;
        * LRequiring that any employee who questions the scientific 
methods being used in a study, including the quality assurance and 
quality control procedures for analysis, use appropriate channels to 
address their concerns with the Director of the research;
        * LStating that any measures taken outside of established study 
protocols to ``test'' any aspect of a study without the knowledge and 
consent of the principal investigator are always unacceptable; and
        * LInforming employees that acting outside of established 
scientific protocols would be grounds for disciplinary action up to and 
including removal from the Service.
    <bullet> LAs subsequently recommended by the Inspector General, we 
are also working with the Department's Science Advisor on a Code of 
Ethics to more broadly address the issues that have arisen here.
                               leadership
    <bullet> LPersonal commitment--I have met personally with Regional 
and field managers in 3 of our 7 Regions, and focused on the science 
issue in my public and private remarks. I will soon do the same with 
the remaining Regions in the near future.
    <bullet> LI will ensure that all our Regional Directors and 
Assistant Directors, both in our collective meetings and in their 
individual actions, focus on sound science as the foundation for 
decisions.
                      optimize external resources
    <bullet> LWe will fully utilize good science support, including 
bringing external science expertise to bear on the design and conduct 
of our scientific studies and evaluations, as well as review of the 
final product. I will seek advice from respected wildlife management 
professionals, academia, States, and the private sector.
    <bullet> LIn cooperation with the Department, we are examining 
which Service products and processes would benefit by additional peer 
review. The findings of this review will be rapidly implemented.
    <bullet> LWhenever possible, I would like to utilize independent 
scientific expertise in our activities at the planning level.
                                training
    <bullet> LI have directed the Service's National Conservation 
Training Center to review the full range of its instructional programs 
to ensure that the importance of scientific rigor, scientific integrity 
and ethics in science is integrated into all of our technical 
curriculum, supervisory training, leadership development programs, and 
our current new employee orientation. It is a well-established axiom 
that an organization will apply the skills that it focuses on in its 
learning phase.
    <bullet> LAll agency managers, supervisors, and leadership will be 
required to satisfactorily complete this training. It will be provided 
to all new employees as an additional part of standard existing new-
employee training.
    <bullet> LI have further directed the National Conservation 
Training Center to make preparations for me to discuss this issue with 
the entire organization through the use of our interactive broadcast 
network. Additionally, I have directed that during this broadcast each 
employee personally receive a copy of my policy regarding scientific 
integrity and professional ethics to raise Service-wide awareness about 
this issue and to leave no doubt where I stand on this subject and the 
consequences awaiting any employee who violates this policy.
    <bullet> LLastly, I have directed that instructional materials be 
prepared and made available to each Regional Director to enable them to 
conduct special local sessions with their employees about the topics of 
scientific rigor, validity, and integrity.
    It is my commitment and priority to address the problem evidenced 
by the unauthorized activity in the lynx survey. I believe the steps I 
outline here provide long-term emphasis on professionalism and ethics. 
Most importantly, the emphasis on standards, training, leadership, and 
enforcement will support continued good work by the Service, and will 
avoid actions that would undermine those standards.
    When it is appropriate under the law to exercise our discretion to 
account for economic and human impacts, we will do so. I am confident 
that the course of action outlined above will improve the public's 
trust in the Service as an objective and scientifically-based steward 
of natural resources.
    This concludes my prepared remarks. I would be pleased to respond 
to any questions you may have.
                                 ______
                                 
    Mr. McInnis. Thank you, Dr. Williams. We are going to go 
ahead and start with the questioning.
    My first point, and I will start the questioning, not long 
ago in Los Angeles we had a police officer who planted 
evidence. As a result of that one particular case, they had to 
reopen every case that that officer was involved in and, as 
you, unfortunately they found that there were a number of cases 
that expanded beyond that.
    My concern is that if these particular biologists, the 
Forest Service and the Interior employees, Fish and Wildlife 
employees, if they have been involved in other studies, have 
you tracked those other studies to see if their behavior has 
followed the same track that it did with this study? And what 
are the future conditions being placed on these employees as 
far as their involvement in further studies or job 
responsibilities where they might have again an opportunity to 
plant the evidence?
    I can tell you that in my past history I have found that 
people tend to repeat their misdeeds. It just seems to be 
something dealing with human nature, despite the fact they 
promise they will never do it again, and oftentimes I have 
often found, even with my own children, that verbal counseling 
isn't necessarily successful.
    So why don't you respond as to what we are doing to look at 
these specific employees and what other studies they are 
involved in, what we are doing in the future to monitor these 
employees. That would be question No. 1.
    And then question No. 2, while we are on these employees, 
we have been doing some looking into this verbal counseling. 
Less than 3 months after receiving verbal counseling, we do 
have one of the Forest Service biologists received a 
commendation for their leadership. I mean, that is appalling. I 
can't believe these people are being commended. They have 
received ``verbal counseling.''
    So that is good enough to get us a start. Let's start first 
with what we are doing about the history and what kind of 
conditions, what kind of oversight on these employees in the 
future. It is clear to me they are not to be trusted, by their 
behavior. And No. 2, if you want to answer why they got 
commendation for leadership and bonuses after this kind of 
behavior.
    So whichever one of you wants to start, but I want to hear 
from the members of the panel. Go ahead, Mr. Rey.
    Mr. Rey. With regard to the first question, we have 
reviewed the projects that the Forest Service biologists have 
been involved in, as well as the projects that they are 
currently assigned to, and we are comfortable that those 
projects do not lend themselves to circumstances where we will 
have to worry about their motivations or their activities in 
the future.
    The record should be clarified to note that upon learning 
of the problem, they were taken off the lynx project. That was 
one of the measures that was taken immediately.
    We are not aware that any of the--and of course one of the 
Forest Service employees has retired, so that is no longer an 
issue in that particular case--we are not aware of any merit 
award increases that any of the biologists have increased, nor 
any commendations for leadership. We are aware of nonmonetary 
awards of a de minimis nature for their work on other projects 
unrelated to the lynx episode.
    Mr. McInnis. Well, they may not have received money, but 
you say other awards. I mean, doesn't the fact, Mr. Rey, 
doesn't the fact that an employee has committed a misdeed in 
one area kind of shadow the rest of accomplishments they may 
have, No. 1?
    And, No. 2, you have still not answered my question: What 
kind of monitoring is going to be placed on these employees for 
future involvement that they might have where there is a 
temptation or an opportunity to submit false evidence?
    Mr. Rey. The answer to the first question is that the award 
which was provided was nonmonetary in nature. It was a travel 
bag valued at under $200, for work on an unrelated project, and 
the award was presented before management in the Forest Service 
became aware of the lynx problem.
    The answer to the second question is that we have taken 
them off the lynx project and put them on projects where we 
don't think we are going to need to monitor them, because the 
nature of what they are doing is dissimilar to this kind of 
work.
    Mr. McInnis. Dr. Williams, do you have anything you would 
like to add?
    Mr. Williams. Yes. To respond to your first question, in 
the IG's report there is a series of pages that looks at the 
two individuals who were involved in the submission and 
documents what you suggested, the history of their involvement 
in other surveys, and we will be taking a look at those surveys 
and their involvement.
    As far as the future, just as with the Forest Service, the 
two individuals obviously are no longer working on the lynx 
survey. I can't report to you right now what the other 
individual is involved in, but that is something, again 
following the IG's report and analysis of that, that we will 
watch very closely.
    As to the awards, honestly, when I looked over the report 
Friday and this weekend, that is a question in my mind. I 
would, though, make a distinction just to clarify, not as an 
excuse but as clarification, that at least one of the awards 
was--I should put it the other way--none of the awards were for 
their work on the lynx survey. But that is something that I am 
going to take a second look at.
    Mr. McInnis. I point out to the panel that, I mean, you can 
be assured that the Los Angeles police officer that planted 
evidence in one case was not about to receive a commendation 
medal or some other kind of pat on the back in another case. It 
kind of dilutes the integrity of the process.
    And then finally, to wrap it up, Dr. Williams, if you would 
submit, just let us know what your findings are, since you are 
in the investigatory stage, of other previous studies that 
these particular individuals were involved in, that would be 
helpful.
    Mr. Inslee?
    Mr. Inslee. Thank you. Mr. Rey, I just read your written 
statement. I don't know if you testified about this, but your 
written statement says, ``First, the events described by Mr. 
Thompson achieved such resonance because they apparently ratify 
a suspicion held by some about the use of scientific 
information in resources decisionmaking--that is, information 
is manipulated under the guise of dispassionate expertise to 
achieve desired, or even predetermined outcomes. This did not 
occur in this instance, but the rush to judgment that it did 
should serve as a warning signal to us.''
    I want to focus just first on the part where you said this 
did not occur in this instance. Why do you say that? Why do you 
say that did not occur in this instance?
    Mr. Rey. Based upon our internal investigation, we are at 
this point working on the presumption that the actions of the 
Forest Service, and for that matter the other biologists, were 
not motivated by a desire to misrepresent data to expand lynx 
habitat, but rather by an ill-conceived action that amounted to 
a misjudgment, and that is that they were somehow responsible 
for testing the validity of the laboratory we were using to 
analyze those data. And that is the basis, so far, for that 
conclusion. That is also the basis that I think the agency 
rests the actions that have been taken so far with regard to 
those individuals.
    What you heard from GAO in the previous panel, however, was 
some ambiguity about the underlying motivation, and that is why 
our own Inspector General is conducting a similar 
investigation, to see if we can shed some greater light and 
satisfy ourselves finally that the conclusions that we have 
reached preliminarily as a result of our initial investigation 
are in fact what we want to rest with.
    Mr. Inslee. And I assume you would agree that the agency's 
treatment of those employees should be dramatically different 
depending on what their motivation was?
    Mr. Rey. That is correct, and I would go a step further. As 
a response that the agency has taken to this particular 
instance, we have extended the application of our Code of 
Ethics for our researchers to anyone in the agency involved 
even collaterally in a research project. These biologists were 
not researchers. They were providing field assistance to a 
research project.
    The Code of Ethics, which previously applied to our 
researchers, which now applies to all of our employees and 
contractors and cooperators involved in research, is that any 
misrepresentation of data is viewed as a serious offense, and 
the remedy will range from a letter of reprimand to dismissal.
    So we won't in the future become involved with a long 
investigation about the motivation. The occurrence of a 
demonstrated misrepresentation will be enough in the future to 
trigger greater disciplinary action.
    Mr. Inslee. Do you have any reason to believe that this is 
a widespread problem in the agency?
    Mr. Rey. No. It is a widely held perception about the 
agency, and that is something that we are most interested in 
changing.
    Mr. Inslee. Do you think, you know, when you think about 
this, kind of looking at it the other way, it makes sense that 
you would challenge the finding of labs in some sense. It makes 
sense that the system have a control process where controls 
will be submitted blindly to a lab, unbeknownst to the lab, so 
that you test the accuracy of the lab, black or white, pro or 
con, up or down. To me, it really makes sense that you have 
such a challenging system.
    So in a sense it makes sense that somehow that the 
laboratory was challenged, but this wasn't the way to do it, 
obviously. Do you think, is the agency considering any ways to 
either make the challenging, a protocol for a challenge more 
user-friendly to the various biologists, so that they trust it 
more? Is there some way you can make your challenge system more 
accessible, efficient? Are you considering that at all?
    Mr. Rey. Every time we design an experiment, we look at the 
protocols and the controls. In this case we had controls in 
place, so there was no need or cause for individual field 
biologists to do their own experiments, so to speak.
    I think the breakdown here was in part one of confidence as 
well as information. One of the lessons from this is that when 
we enlist field biologists to assist in research, we are going 
to have to do a little bit better job of explaining to them the 
entirely of the research protocol, so that they understand 
where the controls are, and aren't feeling that it is their 
responsibility to make them up as they go along. But clearly we 
will have to do a better job of that.
    Mr. Inslee. I would second that motion. Thank you.
    Mr. McInnis. Mr. Osborne?
    Mr. Osborne. All right. Thank you, gentlemen, for being 
here today.
    The district that I represent is 97 percent owned by 
private landowners, and it is largely rural, largely 
agricultural. So how you folks are perceived is really 
important, and right now the events in the Klamath Basin, this 
particular incident, and then one which I am about to read to 
you, I think have really led to some issues that are very 
damaging to your cause and to the landowners. Let me just 
explain this briefly.
    In 1978, 56 miles of the Platte River in Nebraska was 
designated as critical habitat for the whooping crane, and 
subsequently this statement was made by someone from the 
Whooping Crane Trust, someone who works for them. It was not 
somebody that was a landowner.
    They said, ``From 1970 to 1998 there were no confirmed 
whooping crane sightings on the Platte River.'' This is 
critical habitat. No sightings during that period of time, 28 
years, and still it is declared as critical habitat. ``During 
1981-1984, radio tracking of whooping cranes, 18 whoopers were 
tracked on three northbound and two southbound migrations. None 
of them used the Platte River.''
    And so the concern here is, we have got a whole bunch of 
people out there in Nebraska who are saying, ``What in the 
world is Fish and Wildlife doing?'' I mean, everybody seems to 
know that this designation was fallacious. It was not based on 
sound science. And now we are going to have another designation 
for the piping plover and the least tern, and they have not 
nested at any time on that stretch of the Platte River in the 
last 10 years.
    And so what I am saying, I have seen it both ways. And Mr. 
Williams, I know that you are new, and I know that this is not 
your baggage, but what I am trying to tell you is that I have 
seen a couple of Fish and Wildlife people who have worked with 
the landowners. They have incorporated their cooperation. They 
have had a tremendous relationship, and some great things have 
happened as far as the wildlife and the species.
    And on the other hand, I have seen an attitude of ``My way 
or the highway. We have got the Endangered Species Act backing 
us up, and you guys get out of the way.'' And that has been 
very, very damaging. And of course this type of thing here, it 
seems to me like we are saying to some degree, ``Well, no big 
deal. These guys may have had good motives. We don't know what 
their motives were, but they may have been well-intentioned.''
    But I can tell you from the standpoint of public 
perception, this is a big deal, and to let these people get by 
with a lecture is ridiculous. There is no place--and I don't 
care what their motivation was. In private industry, any other 
area of the country, if it is well run, you do not give them a 
lecture and allow them to continue to work for you.
    And so what I am telling you is that, in trying to 
represent these people out there who are landowners, this had 
better be taken very seriously because it has really led to a 
real lack of credibility, and it makes your jobs much harder. I 
know that you mean well. I know that you are well-intentioned. 
I know you are trying to get a job done.
    And so I just want to make that statement. I don't have any 
further question, but I think that there is an ethos that is 
involved with an organization, and if the prevailing atmosphere 
is that you can do something like this and you do not pay a 
price for it other than a lecture, that is very pervasive, and 
it sends a very powerful message to your employees. And so I am 
sorry that this has happened, but I really am very concerned 
about the response that has been given to this issue.
    I yield back.
    Mr. McInnis. Thank you, Mr. Osborne.
    Mr. Tancredo?
    Mr. Tancredo. Thank you, Mr. Chairman.
    Mr. Williams, do you have any idea of whether or not the 
department has a policy with regard to turn-around time after a 
congressional inquiry? A letter comes from a Congressman asking 
for specific information. Do you know when the Department of 
Interior says that that should be responded to?
    Mr. Williams. I don't know specific time period. There may 
well be one. Certainly a timely and accurate response to 
congressional and any public inquiry is something that we need 
to shoot for.
    Mr. Tancredo. On December the 18th I sent the Secretary of 
both the Department of the Interior and the Department of 
Agriculture a letter, a copy of which I have here, in which I 
among other things requested--well, I say ``It would suggest 
that it is incumbent upon all involved to revisit and reexamine 
the results of not only the lynx survey but of any other 
projects or studies that these individuals may have been in 
position to disrupt or sabotage over the course of their 
employment. I also encourage you to make the results of 
wholesale internal evaluation available to members of the 
Resource Committee.''
    I have not yet--and it goes on for a couple of pages here--
but I have not yet heard a word back. Now I understand that 
investigations of course have been done. I believe Mr. Rey 
suggested that you are essentially in agreement with the 
results of the investigation up to this point in time, that 
there were no other issues that needed to be looked into.
    Certainly I would appreciate it very much if you could find 
out why we have not, No. 1, received a response; and, No. 2, if 
you could get us a response, a written response to this 
request.
    Also, I would like to ask, when you claim, and I believe it 
was Mr. Rey who said that you have no further concerns about 
the kinds of activities which these gentlemen were involved 
with in the past; that your investigation, your internal 
investigation, initial investigation, led you to believe that 
there was no other reason to be concerned.
    Can I ask you if in that internal investigation, when these 
two gentlemen who are still in some way affiliated with the 
agency, when they told you that the reason why they did this 
was to in fact test the validity of the lab, the results or the 
work of the lab, what proof do you have? You heard the GAO 
inspector say that he had nothing else but their word on that. 
What proof do you have that led you to the conclusion that that 
was in fact why they did it?
    Mr. Rey. Let me take your questions in order, so that I can 
get all of them.
    First of all with respect to your December 18th letter, as 
I am sure you can appreciate, much of our December mail is 
arriving or has been arriving over the last couple weeks in a 
slightly browned and more crispy fashion--
    Mr. Tancredo. As is mine, yes.
    Mr. Rey. --than it was originally sent, and that letter 
response will be to you shortly, although some of the issues 
that you raised are issues in the OIG investigation and they 
will be responded to in the course of that investigation.
    Second, what I think I said, and I will try to say it more 
artfully, is that the results of the first investigation led us 
to some preliminary conclusions that we are now evaluating 
further in the second Office of Inspector General 
Investigation, and that one of the most--
    Mr. Tancredo. I heard that part, but you said you came to 
some preliminary conclusions. Stop right there for a second. 
Those conclusions to which you came led you to believe, if I 
remember your statement, that there was nothing else out there 
that you had to worry about in terms of other work that these 
people had been involved with.
    Mr. Rey. Right. We reviewed the projects that they had been 
involved in prior to this, and the nature of their activities 
didn't lend themselves to the opportunity to do this kind of 
action, and that is what led us to the conclusion that we 
weren't needing to be concerned about the validity of the 
projects they worked on previously.
    Mr. Tancredo. And did your original conclusion, I mean the 
conclusion to which you came after your initial study, also 
lead you to believe that their claim that they were doing this 
to test the lab was accurate.
    Mr. Rey. That was the conclusion of the initial 
investigator, and the question of motivation is sufficiently 
murky that that is an issue that we asked OIG to look into 
specifically.
    The basis for the conclusion of the original investigator, 
because the Forest Service did undertake an investigation of 
its own with an independent investigator last fall, was based 
on how the actions were conducted compared to how you would 
have--how a reasonable person would have proceeded if their 
intention would have been to, by their actions, expand the 
habitat of the lynx.
    And there are several things that don't seem to lend 
themselves to the conclusion that that would be a reasonable 
motivation. First, the fact that they told lots of people or a 
fair number of people what they were up to. Second, that they 
selected, they labeled their samples in a way which would not 
have immediately expand the lynx habitat.
    One of the samples wasn't labeled as coming from the grid, 
which would have raised questions about what it was about 
before any subsequent field surveys would have been undertaken. 
A couple of the other samples were labeled from parts of the 
grid where we already knew lynx existed.
    So if their intent was to expand the range of the lynx by 
virtue of their activities, their activities wouldn't have 
gotten them there. Third--
    Mr. Tancredo. I could give you, I think, a logical reason 
for doing the two things you have just described, anyway, and 
come to the conclusion that they still could very well be doing 
it for the purpose of expanding the territory.
    First of all, it is very likely from everything I have 
heard, and certainly from everything we have read, that the 
culture within the agency is one in which it would not be 
unusual for people necessarily to describe this kind of 
activity with the assumption, perhaps justifiably, that their 
action isn't that unique, and that the people to whom they are 
or with whom they are communicating aren't necessarily inclined 
to be shocked by this kind of thing, and would be in fact 
somewhat proud of the fact that their colleagues had done this, 
it is possible.
    It is also possible to suggest that even the way in which 
the samples were submitted, and from other, as you indicated, 
from other sections where you knew lynx were already in 
existence and were around, would be in a way a pretty smart 
move, to kind of add to the credibility of the action they were 
taking that was always designed for the purpose of expanding. I 
mean, it is so hard to believe the alternative to that.
    I mean, there are really only two ways that you can think 
about this, it seems to me. One was that they were in fact 
trying to expand the area in which lynx could be identified, 
for obvious, again, purposes. Or that you believe them, that 
they were trying to test the lab. And you know, it is so 
amazing to me that that could be held up as a reasonable excuse 
for doing it, when there is absolutely not a shred of evidence 
that that is, you know, the case.
    And so it just seems to me that to drop it there would say 
that you are more on their side than ours in trying to find the 
truth.
    Mr. Rey. Well, I don't think I am on anybody's side. I am 
interested in finding the truth, and we haven't rushed to 
judgment about the specifics here. We have initiated a second 
investigation to get to the question of motivation.
    But based upon the disputes over the previous survey, the 
Weaver survey, it is not out of the range of credulity, but 
nevertheless well outside of the range of good judgment, for 
some of our field biologists to believe that this laboratory, 
by virtue of the fact that it wasn't showing the positives that 
the Weaver study did, was misanalyzing the samples that were 
being sent. It is not completely incredulous.
    It is an area in which we are continuing to look. It is not 
an example, as best we can tell, of widespread agency behavior. 
It is something that is widely assumed by a large number of 
people, and that is something that together we have to address 
and deal with.
    Mr. Tancredo. Were you concerned about the fact that--I am 
sorry.
    Mr. McInnis. Mr. Tancredo, I have allowed you an additional 
5 minutes because I think it is very important, but I want to 
get this third panel on, in fairness to the third panel. I am 
going to conclude this panel.
    Mr. Rey, what I would urge you to do is to read page 20 of 
the contract investigator that you had. Just very briefly, 
those comments are such that these control samples were not, 
did not stick out like a sore thumb. In fact, I think that it 
says, ``While there were unusual circumstances concerning one 
of the samples, I note that if I had not been asked to examine 
the samples''--I am leaving some blanks here because these are 
names--``sent in pursuant to this investigation, I likely would 
have thought only that it was a careless error. In other words, 
it would not have occurred to me that that individual would 
have sent in a sample of hair not actually collected.''
    So take a look at that. I also would ask that you stay 
around for the next panel, where we have somebody from the lab 
there, because I don't want you chalking this up too early to 
some harmless error that obviously would have been found. These 
individuals admitted that they knew they were outside their 
authority, they knew that they were not authorized to do this, 
and so on.
    Mr. Rey. I don't think anybody has called it a harmless 
error. We don't believe it to be a harmless error. There is a 
question of what their intent was, how malicious it was, and 
what the appropriate remedy was, and all three of those 
questions are in our view still open.
    Mr. McInnis. Good, and keep in mind also that the previous 
testimony was that it would kick in the second investigative 
stage, which would then come back to these individuals--
    Mr. Rey. That was incorrect. That was the only error in 
generally accurate GAO testimony.
    Mr. McInnis. OK. Well, why don't you clarify that very 
briefly for us?
    Mr. Rey. The snow surveys would be done by a separate set 
of researchers, because the biologists involved at this stage 
of the survey did not have the training to conduct the snow 
surveys. And parenthetically, if there was malicious intent, at 
this stage of an investigation we would probably have uncovered 
additional activities, conspiratorial activities to try to rig 
the snow surveys, and we have seen none of that so far.
    Mr. McInnis. But if an individual believed, in their heart 
they believed that the lynx was out there, and they believed 
that the scientists were too narrow, that it needed to be 
broadened, they could have kicked the broadening of it, even if 
it didn't come back to them, in hopes that by broadening it, 
that it would in fact find what they always believed to be 
true, and that was that lynx were in existence out there.
    Mr. Rey. They could have kicked in another round of survey, 
there is no question about that. They would not have done them 
themselves, though.
    Mr. McInnis. I want to thank the panel, and I also want to 
specifically commend you for expanding, for example, your 
ethics code and so on. It is obvious to me that you take this 
seriously. It is clear we have got to avoid this in the future. 
Regardless of what side anybody is on, the integrity of the 
system is what is in question here, and that is what we have to 
preserve.
    So I thank this panel and I would excuse the panel. Thank 
you very much for your testimony. We appreciate it.
    Mr. Rey. Thank you.
    Mr. McInnis. And we will call the third panel up. On this 
panel we have Mr. McKelvey, Research Ecologist at USDA Forest 
Service; Dr. Mills, and Mr. Franklin. Why don't we begin with 
Dr. Mills and we will just go that direction. You may proceed 
with your opening statement.

  STATEMENT OF T. SCOTT MILLS, ASSOCIATE PROFESSOR, WILDLIFE 
   BIOLOGY PROGRAM, SCHOOL OF FORESTRY, UNIVERSITY OF MONTANA

    Mr. Mills. Thank you. Mr. Chairman and members of the House 
Resources Committee, I thank the Committee for inviting me to 
testify before you today. I am a wildlife biology professor in 
the School of Forestry at the University of Montana. My 
research and teaching expertise centers on understanding the 
population dynamics of wildlife species. To this end, my 
students and I use field studies, mathematical models, and 
genetic analyses to address questions and apply biology.
    In 1998 I began to collaborate on issues related to lynx 
surveys with Dr. Kevin McKelvey, the lead scientist who 
developed and implemented the National Lynx Survey for the U.S. 
Forest Service. My role in the collaboration was to identify to 
species the hair samples collected, using a DNA-based species 
identification protocol developed in my laboratory and 
subsequently peer reviewed and published.
    In developing this protocol, we tested it using 95 known 
samples collected across the range of the species involved, to 
make sure for example that a lynx was always identified as a 
lynx, a bobcat as a bobcat, and so on. Before the protocol was 
published or instituted as a diagnostic tool in the National 
Lynx Survey, we also conducted extensive blind tests on a total 
of 87 samples both within our lab and at an external lab. 
Species identification was correct in all 95 geographic range 
tests and all 87 blind tests.
    The National Lynx Survey has relied on field personnel in 
12 States to follow predefined, detailed, rigorous instructions 
developed by Dr. McKelvey and me to guide all aspects of 
initiating the survey, collecting the data, and sending us the 
samples.
    The mislabeling of National Lynx Survey samples by a few 
field personnel was wrong, and cannot be defended on any 
scientific merit. That said, I believe that the National Lynx 
Survey retains integrity to inform land management and to 
provide credible scientific insights on lynx distribution. 
Although the mislabeled samples could have led us to report 
three false lynx detections, and the few mislabeled samples 
have created problems for perception of the project as a whole, 
two important components built into this study provide a 
firewall that protects the integrity of the study for 
evaluating lynx distribution.
    First, the lead scientists, McKelvey and I, are population 
biologists whose training would lead us to interpret the 
results appropriately to the scientific community and to 
management. Although mislabeled samples could have led us to 
report false lynx detections on two national forests, we would 
have simultaneously noted that a detection is not the same as a 
population.
    Second and most importantly, the hair collection in the 
National Lynx Survey was only the first step in evaluating lynx 
presence. As I am sure Dr. McKelvey will describe, follow-up 
snow tracking and trapping efforts are built into the study to 
separate actual lynx populations from transient individuals, 
fur farm escapees, or as we have discovered, mislabeled 
samples. Therefore, I do not believe that the scientific 
validity of this study to contribute to land management 
decisionmaking was compromised by the mislabeling of samples.
    Finally, the question arises as to the motivation of those 
who mislabeled samples. I do not know those individuals, nor do 
I know their motivations. My experience throughout my career in 
working with hundreds of biologists and field personnel, 
including employees of U.S. Fish and Wildlife Service, U.S. 
Forest Service, National Park Service, State wildlife 
departments, private groups and several universities, is that 
they have exceptionally high ethical standards in their pursuit 
of knowledge. Although inappropriate actions may occur on an 
individual and rare basis, my opinion is that these instances 
do not invalidate the larger body of wildlife biology in the 
same way that inappropriate actions by a few physicians does 
not mean that we should shut down the practice of medicine.
    In summary, I believe those few who mislabeled samples have 
no legitimate excuse for their actions. However, I also believe 
that their actions should not compromise the role of biological 
studies in policy decisionmaking. I hope that the actions of 
these few do not taint the excellent work of biologists across 
this country, who strive toward the highest ethical standards 
as they carry out a public mandate to understand the critical 
needs of wildlife species.
    [The prepared statement of Mr. Mills follows:]

 Statement of Dr. L. Scott Mills, Wildlife Biology Program, School of 
   Forestry, University of Montana, (Representing myself and not any 
                             organization)

    Mr. Chairman and Members of the House Resources Committee,
    I thank the Committee for inviting me to testify before you today.
    I am a Wildlife Biology Professor in the School of Forestry at The 
University of Montana. My research and teaching expertise centers on 
understanding the population dynamics of wildlife species; to this end 
my students and I use field studies, mathematical models, and genetic 
analyses to address questions in applied biology (see attached 
abbreviated Biographical Sketch).
    In 1998, I began to collaborate on issues related to lynx surveys 
with Dr. Kevin McKelvey, the lead scientist who developed and 
implemented the National Lynx Survey for the US Forest Service. This is 
one of numerous productive collaborations that I have had with research 
scientists of the Forest Service and other state and federal agencies. 
My role in the collaboration was to identify to species the hair 
samples collected, using a DNA-based species identification protocol 
developed in my laboratory and subsequently peer-reviewed and published 
(see Mills et al. 2000, attached). The heart of this species 
identification protocol involves polymerase chain reaction (PCR) 
amplification of short (about 400 base pair) segments of mitochondrial 
DNA found in the hair samples. We next use restriction enzymes to 
produce species-specific fragments of DNA. These fragments are 
consistent across the range of a species and are not shared by other 
species. Hair samples can be amplified via PCR (allowing a species 
determination) in approximately 80% of the samples.
    In developing this protocol we tested it using 95 known samples 
collected across the range of the species involved, to make sure, for 
example, that a lynx was always identified as a lynx, a bobcat as a 
bobcat, and so on. Before the protocol was published or instituted as a 
diagnostic tool in the National Lynx Survey we also instituted 
extensive blind tests--whereby the technician performing the analysis 
did not know the identity of the sample ``on a total of 87 samples both 
within our lab and at an external lab (USFWS National Fish and Wildlife 
Forensics Laboratory in Ashland, Oregon). Species identification was 
correct in all 95 geographic range tests and all 87 blind tests. We 
continue to obtain known samples to validate this and other species-
identification protocols we have developed: to date we have analyzed 
465 known-species samples including 151 blind test samples. These 
validation controls have provided 465 chances for us to obtain the 
wrong species identity, yet no samples have been misidentified. 
Furthermore, we consistently detect lynx in geographic areas where they 
are known to occur.
    In addition to the validation procedure, we have other appropriate 
laboratory controls to minimize the probability of inaccurate species 
identification via either false positives (calling the source of a 
sample lynx when it is not) or false negatives (calling the source of a 
sample a species other than lynx when it is actually a lynx). Every set 
of samples we analyze includes ``positive controls'' to ensure that 
test conditions are appropriate for species identification and 
``negative controls'' (pure water) to detect contamination. We also 
extract DNA from hairs in a separate building from where other 
laboratory activities occur to control against contamination.
    We consulted extensively with the USFWS Forensics lab concerning 
preserving the chain-of-evidence associated with forensic samples. 
Records of all of the gels we have run are kept in lab books, all of 
the extracted DNA samples are preserved in 20-below-zero freezers, and 
all hair samples are held in sealed, dessicant-filled vials in locked 
cabinets in the hair extraction lab. If there are any issues associated 
with a specific sample, we can readily access the DNA analyses, 
extracted DNA, and the original hair sample.
    The National Lynx Survey has relied on field personnel in 12 states 
to follow pre-defined, detailed, rigorous instructions developed by Dr. 
McKelvey and me to guide all aspects of initiating the survey, 
collecting the data, and sending us the samples. The mislabeling of 
National Lynx Survey samples by a few field personnel was wrong, and 
cannot be defended on any scientific merit (see correspondence items by 
Mills and by Buskirk on page 471 of the Jan. 31 issue of Nature).
    That said, I believe that the National Lynx Survey retains 
integrity to inform land management and to provide credible scientific 
insights on lynx distribution. Although the mislabeled samples could 
have led us to report 3 false lynx detections, and the few mislabeled 
samples have created problems for perception of the project as a whole, 
two important components built into this study provide a firewall that 
protects the integrity of the study for evaluating lynx distribution. 
First, the lead scientists (McKelvey and I) are population biologists 
whose training would lead us to interpret the results appropriately to 
the scientific community and to management. Although mislabeled samples 
could have led us to report false lynx detections on 2 National 
Forests, we would have simultaneously noted that a detection is not the 
same as a population.
    Secondly, and most importantly, the hair collection in the National 
Lynx Survey was only the first step in evaluating lynx presence. As I 
am sure Dr. McKelvey will describe, follow-up snow tracking and 
trapping efforts are built into the study to separate actual lynx 
populations from transient individuals, fur farm escapees, or (as we 
have learned) mislabeled samples.
    Therefore, I do not believe that the scientific validity of this 
study to contribute to land-management decisionmaking was compromised 
by the mislabeling of samples.
    Finally, the question arises as to the motivation of those who 
mislabeled samples. I do not know those individuals, nor do I know 
their motivations. My experience throughout my career in working with 
hundreds of biologists and field personnel--including employees of 
USFWS, USFS, NPS, state Wildlife Departments, private groups, and 
several Universities--is that they have exceptionally high ethical 
standards in their pursuit of knowledge. Although inappropriate actions 
may occur on an individual and rare basis, my opinion is that these 
instances do not invalidate the larger body of biology, in the same way 
that inappropriate actions by a few physicians does not mean that we 
should shut down the practice of medicine.
    In summary, I believe those few who mislabeled samples have no 
legitimate excuse for their actions. However, I also believe that their 
actions should not compromise the role of biological studies in policy 
decisionmaking. I hope that the actions of these few do not taint the 
excellent work of biologists across this country, who strive toward the 
highest ethical standards as they carry out a public mandate to 
understand the critical needs of wildlife species.
                                 ______
                                 
    [An attachment to Mr. Mills' statement follows:]
    [GRAPHIC] [TIFF OMITTED] 78011.003
    
    [GRAPHIC] [TIFF OMITTED] 78011.004
    
    [GRAPHIC] [TIFF OMITTED] 78011.005
    
    [GRAPHIC] [TIFF OMITTED] 78011.006
    
    Mr. McInnis. Thank you.
    Dr. McKelvey?

    STATEMENT OF KEVIN McKELVEY, RESEARCH ECOLOGIST, FOREST 
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. McKelvey. Mr. Chairman and members of the Committee, 
thank you for the opportunity to appear before you today and to 
talk about the National Canada Lynx Survey. I am Kevin 
McKelvey. I am a research scientist working for the Rocky 
Mountain Research Station of the USDA Forest Service. I am the 
scientist with responsibility of overseeing the National Lynx 
Survey effort, and today I would like to describe the 
background, objectives, survey methods, DNA analyses, and 
measures used to ensure quality and reliability associated with 
the National Lynx Survey. I would like to summarize my 
statement and enter the written remarks into the record.
    In 1999, Dr. Keith Aubry, Yvette Ortega and I analyzed the 
historical distribution of lynx, but we did not have data to 
determine current distribution. Basic information about 
distribution, patterns of reproduction, and habitat use are 
needed to build an effective conservation strategy. The 
National Lynx Survey was designed as the first step in this 
process, with follow-up surveys in areas where lynx are 
detected as the second step.
    The survey is based on peer reviewed and published research 
developed by the Rocky Mountain Research Station and the 
University of Montana. The National Lynx Survey is funded and 
chartered by the National Lynx Steering Team, an interagency 
oversight group.
    Our research protocol used scent stations to collect hair 
and DNA analyses to determine species. After we detected lynx 
using hair snagging, we could then employ more intensive 
methods such as snow tracking to verify the detections and gain 
additional information regarding lynx populations.
    The study was designed to detect lynx with high likelihood. 
We tested the probability of detection directly by implementing 
the survey in as many areas as possible in Montana, Washington, 
Wyoming, and Maine. We centered grids with transepts on large 
contiguous areas of designated lynx habitat, and specified that 
the survey be run in each location for 3 years.
    To regularize methods and ensure consistency, we used 
common training and the same instructor, and provided a kit 
containing everything necessary to conduct the survey. An 
extremely detailed field manual was also included in each kit. 
The field protocol was simple, so that as long as there was 
sufficient supervisory control, crews of variable make-up and 
skills would not have difficulty following it.
    Vials of collected hair were shipped to the Missoula lab. 
Additional written reports were sent to the Forest Service 
Regional Office in Missoula or to the Missoula lab.
    For lab analyses, species identification methods were 
developed using extensive internal and external blind tests as 
well as geographic range tests to confirm that the DNA 
differences used to separate species were consistent. Positive 
and negative controls are included in each reaction. The 
results of all laboratory reactions in the form of gel images 
are incorporated into lab books, along with species 
identification and associated notes.
    We conduct follow-up surveys when we find a lynx sample in 
an area where prior to the study we did not know that lynx were 
present. We use an extremely intensive winter-long snow 
tracking protocol designed and tested by Dr. John Squires of 
the Rocky Mountain Research Station. This allows us to separate 
detections associated with pets, lone wanderers, fur farm 
escapees, and falsified or unexplained samples, from lynx 
detections associated with populations of conservation 
interest. We are running two such surveys this winter in the 
Boise and Shoshone National Forests, the only forests where we 
found positive lynx samples but did not otherwise know that 
lynx were present.
    There are two potential errors that can affect our survey. 
First, the survey could falsely identify lynx in areas where 
they do not exist. The second is that the survey could fail to 
detect lynx in areas where they do exist.
    The first error, false positives, is primarily controlled 
by the rigor of the lab work. The extreme reliability of these 
assays is the primary strength of the method and one of the 
primary reasons we chose DNA analysis. Even though we have 
processed more than 1,200 hair samples with sufficient DNA to 
amplify, we have only four samples of lynx from two locations 
where we were unaware of their presence prior to the survey. We 
believe that the use of well-tested DNA analyses, combined with 
intensive follow-up surveys, virtually eliminates the 
possibility of false positive results.
    In summary, we can verify the scientific authenticity of 
the National Lynx Survey based on the reasons that I have 
cited: survey methods, DNA analyses, and measures used to 
ensure the quality and reliability associated with the National 
Lynx Survey. We believe the integrity of the overall survey has 
been maintained.
    This concludes my statement, and I would be happy to answer 
any questions that you or other members of the Committee might 
have.
    [The prepared statement of Mr. McKelvey follows:]

  Statement of Kevin S. McKelvey, Research Scientist, Rocky Mountain 
    Research Station, Forest Service, U.S. Department of Agriculture

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to appear before you today to talk 
about the National Canada Lynx Survey. I am Kevin McKelvey and I am a 
research scientist working for the Rocky Mountain Research Station of 
the USDA Forest Service. I am the scientist with the responsibility of 
overseeing the National Lynx Survey effort, including design, analysis, 
reporting and results publication. Today, I would like to describe the 
background and objectives, survey methods, DNA analyses, and measures 
used to ensure quality and reliability associated with the National 
Lynx Survey.
Background
    In 1994, the Rocky Mountain Research Station was charged with 
evaluating the current state of knowledge concerning forest carnivores, 
including the Canada lynx. Their published findings (Ruggiero et al. 
1994) indicated that knowledge gaps concerning forest carnivores, and 
lynx in particular were huge. In 1998, with the proposed listing of the 
lynx under the Endangered Species Act, the potential consequences of 
this lack of knowledge became critical. The Rocky Mountain Research 
Station was charged with collating and evaluating all of the knowledge 
concerning lynx, their prey, competitive interactions, and ecological 
context.
    As a part of this effort, in 1999, Dr. Keith Aubry, Yvette Ortega, 
and I finished an analysis of the historical records for lynx in the 
contiguous United States. However, these data are ambiguous concerning 
the current range of the species. To build an effective conservation 
strategy, we need to determine where extant populations of lynx are and 
where they are not. The first step is to determine where there are 
lynx, secondly, to determine numbers and look for evidence of 
reproduction- that is, residency in an area--and finally, to determine 
patterns of habitat use and conservation needs (Figure 1). The National 
Lynx Survey was designed as the first step in this multi-stage process, 
with follow-up surveys in areas where lynx are detected serving as the 
beginning of the second step.
    Dr. Leonard F. Ruggiero, Dr. John R. Squires, Gregory W. McDaniel 
and I at the Rocky Mountain Research Station developed and published 
the data collection methods used in the survey. Dr. L. Scott Mills, of 
the University of Montana, Kristine Pilgrim, Dr. Michael Schwartz, and 
I developed and published the DNA methods used to distinguish lynx from 
other species. The survey is based on peer reviewed and published 
research. The protocols included standards for training in field 
methods, standards for field data collection, and standards for the DNA 
analysis of hair samples to determine if the hair was from lynx or from 
another species. The National Lynx Survey is funded by and reports 
directly to the National Lynx Steering Team, an interagency oversight 
group headed by Kathy McAllister, Deputy Regional Forester for Region 1 
of the USDA Forest Service. The National Lynx Survey has three primary 
leaders: James Claar, (Region 1, USDA Forest Service), Dr. L. Scott 
Mills, and me. I have general oversight and design of the entire survey 
effort. James Claar is responsible for coordinating with the field 
offices, distributing funds and materials, and training. Dr. Mills, 
Director of the Carnivore Conservation Genetics Laboratory, is 
responsible for the protocols associated with DNA analysis. This 
laboratory is jointly supported by the University of Montana, the Rocky 
Mountain Research Station, and Region 1 of the Forest Service. Because 
Dr. Mills is testifying at these hearings and will describe the DNA 
methods, I will limit my discussion of DNA protocols.
    In order to be effective, we determined that the National Lynx 
Survey needed to have the following characteristics:
    1) It had to produce unambiguous results. We didn't want to spend a 
lot of time doing extensive follow-ups in areas that contained no lynx.
    2) It needed to cover large areas of land, and therefore needed to 
be compact and inexpensive. It was critical that the method not be so 
cumbersome that surveys would be largely confined to roaded areas.
    3) It needed to be a method that worked in the summer. Winter 
methods cannot be applied in avalanche-prone or extensive roadless 
areas.
    4) It needed to be effective enough that lynx populations can be 
reliably found. It is just as important to specify where lynx likely do 
not exist as to determine where they exist. These two understandings 
are required to define current distribution.
    5) Because the survey was to be applied by a large number of people 
with various backgrounds, it had to be simple and straightforward, and 
not demand special skills. Field work had to be limited to data 
collection only.
    These considerations led us to discount most of the current survey 
methods. The hair snagging method, however, used scent stations to 
collect hair and DNA analysis to determine species. It satisfied all 
the requirements for the survey. After we detected lynx using hair 
snagging, we could then employ more intensive methods, such as snow 
tracking, to verify the detections and gain additional information 
regarding lynx populations.
Survey Design
    The goal of the National Lynx Survey is to detect lynx and help to 
define current range. It is a presence/absence survey. Therefore, the 
study has to be designed to detect lynx, if present, with high 
likelihood. If this goal is achieved, failure to detect lynx indicates 
their absence or extreme scarcity, allowing possible range delineation. 
We tested the probability of detection directly by implementing the 
survey in as many areas as possible where lynx are known to be present.
    Detection testing in the contiguous United States is limited 
because we know of so few locations where lynx occur. In Northwest 
Montana, we know of approximately 20 lynx in the Clearwater drainage 
around Seeley Lake, Montana because our research group is conducting a 
large radio-telemetry study in the area. We know that lynx occur in the 
Okanogan National Forest in northwest Washington State, based on 
ongoing camera surveys. We know of a tiny group in Wyoming, probably no 
more than 5 individuals that exist in the northern portion of the 
Wyoming range. Lastly, we know that lynx exist in northern Maine. 
Additionally, there was evidence of lynx occurrence in Glacier National 
Park and in the Pioneer Range in Southwest Montana. We placed surveys 
in all these locations and have currently run them for at least one 
year.
    While extensive, the surveys could not cover the entire historical 
range of the lynx. We therefore centered grids with transects on large 
contiguous areas of designated lynx habitat. Additionally, we specified 
that the survey be run in each location for 3 years. We took a number 
of measures to regularize methods and ensure consistency. We used 
common training with the same instructor across the survey, and we 
provided a ``kit'' for each survey. The kit contained everything 
necessary to conduct the survey. Important components (hair snares, 
visual attractants, desiccant filled vials, lure etc.) were all 
produced at a central facility to ensure consistency. An extremely 
detailed field manual was also included in each kit.
    Additionally, the field protocol was simple: people had to bait the 
lures as specified (we provided the measurement spoons), place the 
transects on a grid, set up each station as specified, collect hair 2 
weeks later, place hair in the provided vials and the associated carpet 
pads in plastic bags (also provided), label the vials and bags and mail 
all vials and the associated pads to us. As long as there was 
sufficient supervisory control to assure that these steps were done 
properly, there is no reason that crews of variable make-up and skills 
could not successfully carry out the protocol.
DNA Analysis of Hair
    Hair vials were shipped to the Missoula Lab in boxes or envelopes 
and were transferred unopened to our ``hair lab,'' a facility on the 
University of Montana in a separate building from the lab in which we 
performed polymerase chain reaction (PCR) amplification.
    Participants in the National Lynx Survey sent written reports to 
the Forest Service Regional Office in Missoula, or to the Missoula Lab. 
The written reports consisted of a set of maps showing the location of 
transects, vegetation forms, and a record of the stations from which 
hair had been collected. By matching information within the written 
reports with the vials and pads received at the Missoula Lab, we could 
detect any addition or deletion of samples that might have occurred. 
Additionally, we requested information concerning problems encountered 
in implementing the survey and ideas as to how the survey could be 
improved. These suggestions have led to a variety of minor changes in 
the field protocol.
    The extracted DNA is then taken from the hair lab located on the 
University of Montana to the main laboratory located in the USDA Forest 
Service Forestry Sciences Laboratory, both in Missoula. Species 
identification methods were developed using extensive internal and 
external blind tests, as well as geographic range tests to confirm that 
the DNA differences used to separate species were consistent within the 
species and consistently different between species. Species 
identification of black bear and brown bear, coyote, wolf/dog, foxes, 
and mustelids, such as fisher, marten, or weasel is also performed. 
Additionally, other species are identified by sequencing the DNA and 
matching the derived base pair strings to data from Genbank, a database 
that serves as the primary international receptacle for DNA data. 
Positive and negative controls are included in every reaction. The 
positive control is a sample from a known organism of the target 
species. The positive control demonstrates that if a sample from the 
target species is present we are able to detect it. The negative 
control is water, and is used to test for the presence of contaminants 
in the reagents. The results of all laboratory reactions, in the form 
of gel images, are incorporated into lab books along with the species 
identification and associated notes.
    We consulted extensively with the Fish and Wildlife Service 
Forensic lab in Ashland, Oregon concerning how to best preserve the 
chain-of-evidence associated with forensic samples. Records of all of 
the gels we have run are kept in lab books, all of the extracted DNA 
samples are preserved in 20-below-zero freezers, and all hair samples 
are held in sealed, desiccant filled vials, in locked cabinets in our 
hair extraction lab. If there are issues associated with a specific 
sample, we can readily access the DNA analyses, extracted DNA, and the 
original hair sample.
Follow-up Surveys
    We initiate follow-up surveys when we identify a lynx sample in an 
area where, prior to the survey, we did not know that lynx were 
present. Where access permits (and it has so far) we utilize an 
extremely intensive winter-long snow tracking protocol designed and 
tested by Dr. John Squires to find lynx in preparation for trapping and 
subsequent radio-tracking. This allows us to separate detections 
associated with pets, lone wanderers, fur farm escapees, and falsified 
or unexplained samples from lynx detections associated with populations 
of conservation interest. We are running two such surveys this winter 
in the Boise and Shoshone National Forests, the only heretofore unknown 
lynx locations associated with the National Lynx Survey to date.
Check-backs and Validation
    There are 2 potential errors that can affect a survey. First, the 
survey could falsely identify lynx in areas where they do not exist. 
The second is that the survey could fail to detect lynx in areas in 
which they do exist (Table 1).
    The first error, false positives, is primarily controlled by the 
rigor of the lab work. In this context, we demonstrated that the 
genetic assays we use for species identification are consistent across 
the ranges of all of the potential felids, and were diagnostic 100% of 
the time in rigorous double-blind tests. The extreme reliability of 
these assays is the primary strength of the method, and one of the 
primary reasons we chose DNA analysis.
    Even though we have processed more than 1200 hair samples with 
sufficient DNA to amplify, we have only found 4 samples of lynx in 
areas where we were unaware of their presence prior to the survey. 
These occurred on the Boise and Shoshone National Forests. We are 
engaging in follow-up surveys of the types mentioned earlier in both 
areas this winter. We believe that the use of well-tested DNA analyses, 
combined with intensive follow-up surveys virtually eliminates the 
possibility of false positive results.
    The second error, failing to detect lynx when they are, in fact, 
present cannot be entirely eliminated, but can be controlled through 
thorough field methods. To reduce the chances of failing to detect 
lynx, the survey employs a large number of approaches (Table 1). 
However, the real test of any survey is determined by directly testing 
its efficacy in the field. That is why we have placed so much emphasis 
on placing survey grids in areas in which lynx presence is known or 
strongly suspected.
Lynx Detections Not Associated With Lynx Conservation
    There are lynx detections that occur within the National Lynx 
Survey that are not of conservation concern. For instance, lynx are 
domesticated both as pets and in fur farms, and may wander off or 
escape. Additionally, even though we have protocols to keep the lynx 
detection stations out of sight from roads or trails, and to limit the 
knowledge of their locations, people can, and have, planted lynx hair 
within our survey. To separate these occurrences from actual lynx 
populations, we rely on follow-up surveys. In these surveys, we look 
for evidence of multiple lynx, family groupings (the young-of-the-year 
travel together with their mother), and the spatial extent of the track 
data. Additionally, because we collect hair from the snow along all 
lynx tracks encountered, we may be able to evaluate the population more 
directly. As an example, on one of our test grids we obtained 12 hair 
samples associated with lynx, and 7 of these samples were from 
different individual lynx. If lynx hair were planted in areas that 
contain no lynx, in our follow-up surveys we would not find tracks, 
lynx hairs associated with the tracks, or other evidence of lynx such 
as scat. We, therefore, believe that the overall integrity of the 
survey is robust and will detect the presence of escaped pets, or 
willful data manipulation.
Summary
    In summary, Mr. Chairman, we believe we can verify the scientific 
authenticity of the National Lynx Survey based on the reasons I have 
cited: survey methods, DNA analyses, and measures used to ensure 
quality and reliability associated with the National Lynx Survey. We 
believe the integrity of the overall survey has been maintained. This 
concludes my statement; I would be happy to answer any questions you or 
members of the Committee might have.
Literature cited not included in the attached National Lynx Survey
    Ruggiero, L. F., K. B. Aubry, S. W. Buskirk, L. J. Lyon and W. J. 
Zielinski. 1994. The scientific basic for conserving forest carnivores: 
American marten, fisher, lynx, and wolverine in the western United 
States. USDA Forest Service General Technical Report RM-234.
                                 ______
                                 
    [Figure 1 and Table 1 follow:]
    [GRAPHIC] [TIFF OMITTED] 78011.001
    
    [GRAPHIC] [TIFF OMITTED] 78011.002
    
    Mr. McInnis. Mr. Franklin?

STATEMENT OF THOMAS M. FRANKLIN, WILDLIFE POLICY DIRECTOR, THE 
                        WILDLIFE SOCIETY

    Mr. Franklin. Mr. Chairman, members of the Committee, my 
name is Thomas Franklin. I am Wildlife Policy Director of The 
Wildlife Society. Thank you for the invitation to appear before 
the Committee.
    The primary point that I wish to make today is that The 
Wildlife Society, a professional society responsible for 
establishing codes of ethics and credentials for practicing 
wildlife biologists, has developed rigorous standards for 
persons engaged in wildlife surveys, management, and science.
    Practicing wildlife biologists are highly educated 
professionals, most with graduate degrees, who are dedicated to 
excellence in natural resource management. They follow the 
scientific method. They understand that their career 
accomplishments depend on their credibility as biologists and 
scientists.
    Do they occasionally make mistakes? Yes, of course. Every 
professional is subject to errors, whether they are biologists, 
physicians, engineers, teachers, or lawyers. However, 
professionals learn from their mistakes and avoid repeating 
them.
    We do not know the identity of the individuals who were 
involved in the Canada Lynx Survey that is the subject of 
today's hearing, nor do we know whether their behavior was 
appropriate, so I shall not speculate about the lynx 
investigation or engage in hypothetical discussion. However, I 
am pleased to describe the Wildlife Society, its code of 
ethics, and its standards for professional conduct that are 
embraced by members of The Wildlife Society and certified 
wildlife biologists.
    The Wildlife Society, founded in 1937, is the association 
of professional wildlife biologists and managers. We are 
dedicated to excellence in wildlife stewardship through science 
and education. The society's mission is to enhance the ability 
of wildlife professionals to conserve diversity, sustain 
productivity, and ensure responsible use of wildlife resources 
for the benefit of society. We have nearly 9,000 members who 
are employed by Federal, State, and local agencies, 
universities, nongovernmental organizations, the private 
sector, and some are students.
    The Wildlife Society's members first adopted a code of 
ethics and incorporated it into the society's bylaws in 1963. 
Violations of the code of ethics by member may result in 
censure, or censure and suspension from membership of the 
society. All reported violations are reviewed by a 
Presidentially appointed board of inquiry, or by the council, 
which is the board of directors of the society.
    The society adopted a program for certifying wildlife 
professionals, called the Certified Wildlife Biologist Program, 
in 1977. Since its inception, nearly 6,000 individuals have 
participated in the program. In addition to describing their 
education and experience, applicants must sign a pledge to 
uphold and conduct their activities in accordance with the code 
of ethics and standards for professional conduct. The standards 
for professional conduct express traditional norms for 
professional service.
    Violation of either the code of ethics or standards of 
professional conduct is a serious matter, and reflects 
unfavorably on the entire wildlife profession. Accordingly, the 
certification program contains a formal process to investigate 
any charge of misconduct against anyone who as been certified, 
as well as disciplinary actions for those found in violation of 
standards.
    The official code of ethics and standards for professional 
conduct are included in my prepared statement, but they are 
summarize succinctly in a 1987 paper on professionalism by 
wildlife biologist Dr. Jack Ward Thomas, who is a past 
president of The Wildlife Society.
    They are, in Dr. Thomas's words: ``Tell folks your primary 
responsibility is to the public interest, wildlife resource, 
and the environment. Don't perform professional services for 
anybody whose intent is to damage the wildlife resource. Work 
hard. Don't agree to perform tasks for which you aren't 
qualified. Don't reveal confidential information about your 
employer's business. Don't brag about your abilities. Don't 
take bribes, or offer them. Uphold the dignity and integrity of 
your profession. And, last, respect the competence, judgment, 
and authority of other professionals.'' Implied but not 
specifically mentioned is a requirement to simply tell the 
truth.
    In conclusion, wildlife biologists are highly educated 
scientists who dedicate their careers to understanding 
ecological relationships and to managing wildlife following the 
scientific method. Wildlife biologists conduct their work 
ethically and professionally. If mistakes are made, they 
correct their behavior, as do persons employed in similar 
professions.
    In the rare case when an individual may violate accepted 
standards, The Wildlife Society has established disciplinary 
procedures through our membership and certification programs to 
ensure that the credibility of the profession is maintained and 
that the public interest is served.
    [The prepared statement of Mr. Franklin follows:]

Statement of Thomas M. Franklin, Wildlife Policy Director, The Wildlife 
                                Society

    Mr. Chairman and Members of the Committee, my name is Thomas M. 
Franklin and I am Wildlife Policy Director of The Wildlife Society. 
Thank you for the invitation to appear before the Committee. The 
primary point that I wish to make today is that The Wildlife Society, 
the professional society responsible for establishing the code of 
ethics and credentials for practicing wildlife biologists, has 
developed rigorous standards for persons engaged in wildlife surveys, 
management and science. Practicing wildlife biologists are highly 
educated professionals, most with graduate degrees, who are dedicated 
to excellence in natural resource management. They follow the 
scientific method. They understand that their career accomplishments 
depend on their credibility as biologists and scientists. Do they 
occasionally make mistakes? Yes, of course. Every professional is 
subject to errors whether they are physicians, engineers, teachers, or 
lawyers. However, professionals learn from their mistakes and avoid 
repeating them. We do not know the identity of the individuals who were 
involved in the Canada lynx survey that is the subject of today's 
hearing. Nor do we know whether their behavior was appropriate. 
However, I am pleased to describe The Wildlife Society, its code of 
ethics, and its standards for professional conduct that are embraced by 
members of The Wildlife Society and Certified Wildlife Biologists.
    The Wildlife Society is the association of professional wildlife 
biologists and managers. Our Society, founded in 1937, is a nonprofit 
scientific and educational organization dedicated to excellence in 
wildlife stewardship through science and education. The Wildlife 
Society's mission is to enhance the ability of wildlife professionals 
to conserve diversity, sustain productivity, and ensure responsible use 
of wildlife resources for the benefit of society. The Wildlife Society 
encourages professional growth through peer-reviewed publications, 
technical meetings, certification, continuing education, professional 
development, and working groups.
    We have nearly 9,000 members who are employed by federal, state and 
local agencies, universities, non-governmental organizations and the 
private sector, and students. Society members are dedicated to 
sustainable management of wildlife resources and their habitats. 
Ecology is the primary scientific discipline of the wildlife 
profession. The Society recognizes that humans, as well as other 
organisms, are dependent upon the environment. The Wildlife Society has 
a strategic document with goals that guide and direct our strategic 
emphasis. Those goals include:
    1. LDevelop and maintain professional standards for wildlife 
research and management.
    2. LEnhance knowledge and technical capabilities of wildlife 
managers.
    3. LAdvance professional stewardship of wildlife resources and 
their habitats.
    4. LAdvocate the use of sound biological information for wildlife 
policy decisions.
    5. LIncrease public awareness and appreciation of the wildlife 
profession.
                  the wildlife society code of ethics
    The Wildlife Society's members first adopted a Code of Ethics and 
incorporated it into the Society's Bylaws in 1963. The following is The 
Wildlife Society's current Code of Ethics for members:
    Each member, in striving to meet objectives of the Society, pledges 
to:
    1. LSubscribe to the highest standards of integrity and conduct;
    2. LRecognize research and scientific management of wildlife and 
their environments as primary goals;
    3. LDisseminate information to promote understanding of, and 
appreciation for, values of wildlife and their habitats;
    4. LStrive to increase knowledge and skills to advance the practice 
of wildlife management;
    5. LPromote competence in the field of wildlife management by 
supporting high standards of education, employment, and performance;
    6. LEncourage the use of sound biological information in management 
decisions; and
    7. LSupport fair and uniform standards of employment and treatment 
of those professionally engaged in the practice of wildlife management.
    Violations of this Code by a member may result in censure, or 
censure and suspension, from membership in the Society. All reported 
violations are reviewed by a presidentially appointed Board of Inquiry 
or by the Council of the Society.
                             certification
    Since 1977 The Wildlife Society has had a program for Certification 
of Professional Wildlife Biologists. The Society has long sought to 
promote and strengthen professional standards in all activities devoted 
to wildlife resources. The certification program was developed to 
provide a voluntary peer evaluation of the education and professional 
experience of wildlife biologists. Since it's inception, nearly 6,000 
individuals have participated in the program, which is open to members 
and nonmembers. In addition to describing their education and 
experience, applicants must sign a pledge to uphold and conduct their 
activities in accordance with a ``Code of Ethics'' and ``Standards for 
Professional Conduct.''
    The Code of Ethics in the certification program adheres to the 
above code of ethics for Society members. The Standards for 
Professional Conduct express the intent of the Code of Ethics and 
traditional norms for professional service.
    Under the Certification program, Associate and Certified Wildlife 
Biologists shall conduct their activities in accordance with the Code 
of Ethics and the following Standards for Professional Conduct as 
prescribed by The Wildlife Society outlined below.
                   standards for professional conduct
    The following tenets express the intent of the Code of Ethics as 
prescribed by The Wildlife Society, and traditional norms for 
professional service.
    Wildlife biologists shall at all times:
    1. LRecognize and inform prospective clients or employers of their 
prime responsibility to the public interest, conservation of the 
wildlife resource, and the environment. They shall act with the 
authority of professional judgment, and avoid actions or omissions that 
may compromise these broad responsibilities. They shall respect the 
competence, judgment, and authority of the professional community.
    2. LAvoid performing professional services for any client or 
employer when such service is judged to be contrary to the Code of 
Ethics or Standards for Professional Conduct or detrimental to the 
well-being of the wildlife resource and its environment.
    3. LProvide maximum possible effort in the best interest of each 
client/employer accepted, regardless of the degree of remuneration. 
They shall be mindful of their responsibility to society, and seek to 
meet the needs of the disadvantaged for advice in wildlife-related 
matters. They should studiously avoid discrimination in any form, or 
the abuse of professional authority for personal satisfaction.
    4. LAccept employment to perform professional services only in 
areas of their own competence, and consistent with the Code of Ethics 
and Standards for Professional Conduct described herein. They shall 
seek to refer clients or employers to other natural resource 
professionals when the expertise of such professionals shall best serve 
the interests of the public, wildlife, and the client/employer. They 
shall cooperate fully with other professionals in the best interest of 
the wildlife resource.
    5. LMaintain a confidential professional-client/employer 
relationship except when specifically authorized by the client/employer 
or required by due process of law or this Code of Ethics and Standards 
to disclose pertinent information. They shall not use such confidence 
to their personal advantage or to the advantage of other parties, nor 
shall they permit personal interests or other client/employer 
relationships to interfere with their professional judgment.
    6. LRefrain from advertising in a self-laudatory manner, beyond 
statements intended to inform prospective clients/employers of 
qualifications, or in a manner detrimental to fellow professionals and 
the wildlife resource.
    7. LRefuse compensation or rewards of any kind intended to 
influence their professional judgment or advice. They shall not permit 
a person who recommends or employs them, directly or indirectly, to 
regulate their professional judgment. They shall not accept 
compensation for the same professional services from any source other 
than the client/employer without the prior consent of all the clients 
or employers involved. Similarly, they shall not offer a reward of any 
kind or promise of service in order to secure a recommendation, a 
client, or preferential treatment from public officials.
    8. LUphold the dignity and integrity of the wildlife profession. 
They shall endeavor to avoid even the suspicion of dishonesty, fraud, 
deceit, misrepresentation, or unprofessional demeanor.
    Violation of either the Code of Ethics or the Standards for 
Professional Conduct is a serious matter that reflects unfavorably on 
the entire wildlife profession. Accordingly, the certification program 
contains a formal process to investigate a charge of misconduct against 
anyone who has been certified through a board of inquiry, as well as 
disciplinary actions for those found in violation of the Code of Ethics 
or Standards for Professional Conduct.
                               conclusion
    Wildlife biologists are highly educated scientists who dedicate 
their careers to understanding ecological relationships and to managing 
wildlife following the scientific method. Wildlife biologists conduct 
their work ethically and professionally. If mistakes are made, they 
correct their behavior, as do persons employed in similar professions. 
In the rare case where an individual may violate accepted standards, 
The Wildlife Society has established disciplinary procedures, through 
our membership and certification programs, to ensure that the 
credibility of the profession is maintained and that the public 
interest is served.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Franklin. I will begin the 
questioning. Mr. Franklin, I will start with you. Later on 
today or tomorrow I will put into the record the names of these 
individuals, and I think it is a good sample to send to your 
code of ethics board, the names of these individuals, and if in 
fact they are members--they may not be--if they are members, 
then I would assume that you would institute an investigation 
under your code of ethics, based on what you just said.
    I think it is highly important that--first of all, I 
commend you on the ethics. I think that is what we are looking 
for. I think it is highly important that we not only put it 
out, that we also follow through, and I would expect that you 
will probably do that once you get the names, which will be in 
the record,
    Mr. McKelvey, let me ask you, I am a little alarmed. I read 
on page 6 of your testimony, and I will quote it--have you got 
it there? Look, I don't want to take you by surprise. You have 
got it memorized, probably.
    ``Additionally, even though we have protocols to keep the 
lynx detection stations out of sight from roads and trails and 
to limit the knowledge of their locations, people can and have 
planted lynx hair within our survey.''
    So I guess we need to know, you gave to me your checks and 
balances of DNA and so on, once you get the lynx hair.
    Mr. McKelvey. Right.
    Mr. McInnis. But apparently you have had people who have 
planted lynx hair. Now, how does your lab do the detection on 
that? Because the DNA is going to show it is a lynx, obviously. 
I mean--
    Mr. McKelvey. We have been talking all day about, when I 
say we have had people plant hair on our sample, that is what 
we have been talking about all day. There is no--
    Mr. McInnis. Are you referring to those specific people in 
your paragraph on page 6?
    Mr. McKelvey. Yes.
    Mr. McInnis. That is what you are referring to?
    Mr. McKelvey. Yes, absolutely.
    Mr. McInnis. These biologists?
    Mr. McKelvey. Yes. I know of no others.
    Mr. McInnis. OK.
    Mr. McKelvey. Because that is one thing. Second, if we get 
samples from the woods that come back lynx, that sends us into 
protocol No. 2, which is we go out to that area. Now we don't 
have to worry about the whole Nation, we have to worry about a 
relatively small piece of land where the hit occurred, and we 
can go into that place and find out if there is anything there.
    Mr. McInnis. And you do that through winter studies or 
tracking, winter tracking?
    Mr. McKelvey. Yes. To date, we have used these winter 
tracking methods because they have been appropriate. If for 
some reason in some part of the country that wasn't going to 
work, we would move to other methods.
    Mr. McInnis. OK, let's assume that these tests or these 
samples, the whistle-blower didn't blow the whistle and let us 
know what was happening, and your lab verifies that in fact the 
DNA, that these were lynx hairs.
    Mr. McKelvey. Yes.
    Mr. McInnis. And then when we go into this, I guess what 
has been referred--not guess, but what has been referred to as 
the secondary stage, give me an idea of what that involves, the 
time period that that involves.
    And I will tell you what I am looking for. My suspicion is 
that some of these employees really believed that there were 
probably lynx out there, and disagreed with the science and 
disagreed with previous findings, and decided that anything 
they could do to extend the period or expand the study in hopes 
that, one, either a lynx did exist or, two, it gave them more 
time to plant evidence, tell me what that secondary stage 
involves.
    Mr. McKelvey. The secondary stage would go on for a winter, 
about 3 months, and at the end of the 3 months, we have 
experience now with running this protocol in areas where we 
have extremely low densities of lynx. It does seem to be able 
to pick them up quite reliably. If we don't get anything, and 
if it were a plant, we wouldn't, there would be no tracks 
there, then we would just say, ``Well, we don't know what that 
was, but it definitely wasn't a population of lynx,'' and my 
recommendation would be that we would go back to the initial 
survey. We would have no evidence at that point that it was a 
plant.
    Mr. McInnis. Would you have a firewall between the 
employees involved in the submission of the initial samples and 
going out on your secondary investigation? In other words, the 
people that submitted the first examples wouldn't know where 
you would be. You would be doing blind testing as to them. Is 
there some firewall in there that keeps them at arm's length?
    Mr. McKelvey. To make sure that the same employees weren't 
on the winter survey?
    Mr. McInnis. Well, that they weren't on it or they didn't 
know where your tracking might be, in other words, so it keeps 
them at arm's length from having any type of involvement in 
that secondary survey.
    Mr. McKelvey. On the surveys that we have in place in 
Shoshone and the Boise, none of the employees that worked in 
the summer are in any way involved with those surveys, and 
therefore they would not know their day-to-day snow tracking 
routes or anything else.
    Mr. McInnis. Well, on this specific case with the 
biologists that were involved here, the people that were 
involved here, I am a little confused. Maybe you have just 
answered it. If in fact the secondary investigation was kicked 
in, is there assurance that those people would not have been 
involved in any way whatsoever or had knowledge, inside 
information, so to speak, of what was being done to confirm the 
initial findings of lynx hair?
    Mr. McKelvey. I can't--this was a hypothetical question.
    Mr. McInnis. But it could have been very realistic if we 
had not had a whistle-blower.
    Mr. McKelvey. That is true. Mark Rey stated that these 
people did not have the expertise to do the snow tracking. That 
is correct. We need to bring in different crews to do that. 
They have to have a lot of experience in looking at lynx 
tracks. They get trained on our lynx telemetry study in 
Montana--
    Mr. McInnis. All right, but what protocol exists, keeping a 
firewall between the first set of employees and the second set, 
or the first set of experts and the second set of experts?
    Mr. McKelvey. I don't believe there is a formal firewall at 
this time. That is something that certainly I think is a good 
idea, and I have been investigating our abilities to do that 
within hiring laws. I mean, there are certain things that we--
we can't just not hire somebody, you know, for something, 
unless we have some reason to do so. So I have been looking 
into that possibility and I think it is a very good idea.
    Mr. McInnis. Thank you.
    Mr. Mills, I have run out of time, so I will make mine, 
just one question with you, very brief. With the laboratory and 
so on, would there be any reason at all, I mean, did you sense 
any weakness in the protocol that would be justifiable reason 
for a field biologist to go ahead on their own accord, to go 
ahead and start testing the lab? In other words, to give you a 
comparable example, is there anything recent at all for the 
janitor at the airport to start walking through the metal 
detector to test whether or not the metal detector was working?
    That is kind of what I am looking for here. Did you sense 
any weakness in the protocol that would justify that kind of 
action by field biologists?
    Mr. Mills. No. In my opinion, there is no justification for 
the action that was taken by field personnel.
    Mr. McInnis. Thank you.
    Mr. Inslee?
    Mr. Inslee. Thank you.
    Bottom line, I want to make sure I understand your 
testimony, can I tell my constituents that this incident or 
collection of incidents did not affect the validity of the lynx 
study in the State of Washington? Can I tell them that? Can I 
ask Mr. Mills and Mr. McKelvey.
    Mr. Mills. I would say that the integrity of the lynx study 
for the State of Washington is the integrity of the study is 
intact.
    Mr. McKelvey. I would second that. Not only when we analyze 
the samples for that area, the only samples of lynx that showed 
up were, in fact, the plant. So we know, at least in 2000, that 
that was the extent of the tampering. So that is one thing, got 
to the bottom of it, took those people out of the system.
    The second thing is that we have backups and follow-ups 
which ensure the reliability of the survey should this kind of 
behavior happen again.
    Mr. Inslee. Dr. Mills, let me ask you about the lab. I will 
just tell you kind of my flavor, what I think happened here. I 
think there were some lower level biologists or folks who were 
collecting samples that, for one reason or another, had doubt 
about the efficacy of the lab and took it upon themselves to 
test that, to challenge it. Would they, by necessity, would 
they have been aware of any other challenge or control system 
that the lab would be exposed to? Would those individuals have 
been aware of that?
    Mr. Mills. I don't know if they would or not. If they asked 
me, they certainly would have. If they had looked at the 
literature, they certainly would have, but I don't know what 
else they might know.
    Mr. Inslee. Could you describe, at least briefly, what that 
control system or challenge system how that works.
    Mr. Mills. Sure, in terms of before we instituted the test 
and before I submitted the paper for peer review and 
publication, we made sure across the geographic range of all of 
the species that always the known species corresponded to the 
appropriate identification via the DNA protocol.
    We also imposed blind tests such that the technician 
running the test did not know the identity of the sample until 
after the test was done. We did that both internal to our lab, 
and we also did that external to the lab, whereby I sent 20 
vialed samples, labeled 1 through 20, to the Fish and Wildlife 
Service forensics lab in Ashland, Oregon, sent them the lab 
protocol that I developed and said, ``Please use just this 
protocol and tell me the identity of these 20 vials.'' They did 
that with 100-percent accuracy.
    Mr. Inslee. But would your lab get samples that someone 
knew were misidentified to challenge your lab?
    Mr. Mills. That was what I just exampled. That is a 
continual, ongoing process that we continually get known 
samples, and we impose our species protocol on those to make 
sure that we do, in fact, get the correct identification.
    Mr. Inslee. Do you think it would help to make sure that 
everybody in this chain of evidence would be aware that you 
have got already blind samples? Do you think that would make 
sense to make sure everyone is advised of that before they 
participate anywhere in this chain to avoid this kind of 
problem?
    Mr. Mills. Clearly, in retrospect, with the knowledge we 
now know, that would be a good idea. However, in my opinion it 
should be sufficient to tell field personnel, here is the 
protocol, and that should be understood that you don't deviate 
from that protocol without informing the principal 
investigators.
    Mr. Inslee. Thank you.
    Mr. Peterson. [Presiding.] Mr. Walden?
    Mr. Walden. Thank you very much, Mr. Chairman.
    I apologize for having to be gone. I had a bill on the 
floor I had to carry, so if this has come out already, stop me.
    Has there been any analysis or are you planning to do any 
analysis on what this set of shenanigans cost the taxpayers?
    Mr. Mills. I would not, personally. I think that that would 
be interesting.
    Mr. Walden. I would agree, as perhaps an understatement. 
Because I think that is an important element. The one thing 
that I hear from my constituents when I go home, there is no 
accountability in this process. And when it comes out, and 
again I missed part of this, unfortunately, and I will get with 
Mr. Rey later perhaps, but about there is this report they got 
paid more, and they have been counseled. I cannot explain that 
to people that I represent how that behavior is allowed to go 
on.
    These people, frankly, from my perspective, we ought to 
pass a law here that holds them personally accountable for the 
costs, since they tried to jury-rig the findings.
    Do we know if these same people who submitted the false 
data have participated in other information-gathering, 
collection, analysis processes on other species?
    Mr. McKelvey. I have no information about these 
individuals.
    Mr. Walden. Would you be in a position to find that out or 
is that somebody else I need to address that to?
    Mr. McKelvey. I would think that Region 6 would be the 
proper individuals. That is who they work for.
    Mr. Walden. I intend to follow up because I guess when you 
see one of these, you say, ``If they did it here, did they do 
it anywhere else?'' And that is a question I have been asked 
all over Eastern Oregon because we are under that lynx habitat.
    Dr. Mills, I find the question interesting from my--well, 
he is gone--my colleague from Washington that somehow I was 
getting to feel like, you know, blame the victim here because 
maybe these people should have been told there were these false 
samples, but the GAO report, have you had a chance to review 
that yet today?
    Mr. Mills. No, I haven't.
    Mr. Walden. Because they say very clearly that the 
scientists knew that the protocol for the national survey did 
not provide for such action, the action they took, and that 
they did not have the authority to make these submissions, and 
they were aware that they had alternatives for testing the 
laboratory other than submitting samples as part of the survey.
    So I find it incredible to somehow say we ought to have a 
different system here when, in fact, the people engaged in this 
action admitted to the GAO they knew what they were doing was 
in violation of the protocols and that there were other ways to 
test the system. I just share that with you.
    I guess for the benefit of the Committee, going back to 
1998, the Oregon Fish and Wildlife Office, Department of Fish 
and Wildlife, raised issues about the proposed Federal listing 
of the threatened species of the lynx in the Northwest, and 
they went through and commented on what was in the Federal 
Register. And they pointed out that there is no data that 
exists to support the idea that lynx ever bred in Oregon; even 
though somebody to tried to classify them as a fur bearer, they 
are not classified as such in Oregon; there is no evidence of a 
breeding population historically; no supportive evidence or 
reasons to list the lynx in Oregon when considering the listing 
criteria in Section 4 of the Endangered Species Act, and yet 
you know when all of this talks about lynx occurs, the habitat 
is huge.
    What we tend to think of is that there may have been some 
that wandered down from the North when they were overpopulated 
some year, but they have never bred, they have never been 
native particularly to our region.
    I guess the real issue for me is, as we learn about this 
potential falsification, well, the falsification of data, it 
really causes problems to the credibility of the Service and to 
the good people in the Service who are doing honest work, and I 
can't say that strongly enough, that I know there are a lot of, 
99.9 percent are doing the right thing, following the 
protocols. And so when this kind of action happens, it just 
throws everything into question. It makes it very difficult to 
rely on the data.
    With that, Mr. Chairman, I will yield back.
    I understand that Mr. Rey would come back to the table if I 
would like those questions answered.
    Mr. Peterson. Yes, Mr. Rey, if you would like to just come 
back to either side, whichever side you are comfortable on, and 
take the first chair, you can sit at a member's chair there 
temporarily.
    Mr. Walden. I apologize again for having--
    Mr. Peterson. That is all right there. That is OK. You are 
more comfortable there. I was going to give you a member's 
chair.
    Mr. Rey. There is too great a chance to get into even more 
trouble up there.
    [Laughter.]
    Mr. Peterson. Please proceed, Mr. Walden.
    Mr. Walden. I guess the question is are you going to 
pursue--I realize you inherited this. I understand you have not 
been on the job long, but this whole issue, what did this cost 
us, and what about accountability? And I was not here if you 
did talk about the so-called bonuses and all of that. Can you 
run back through that for me.
    Mr. Rey. First off, we can get you an estimate of what the 
investigations, both the Forest Service investigation, as well 
as the IG investigations, have cost the taxpayers. I don't have 
that information now. In fact, the IG investigation isn't 
complete, so we wouldn't be able to get you that information at 
the present time.
    Mr. Walden. If I can interrupt you, I am not talking about 
just those two investigations. I am talking about if they 
falsified these data and a process occurred, a lab had to do an 
analysis, and then you had to back out of that, and those lab 
analyses are not cheap, I don't think.
    Mr. Rey. I think we can get you a rough estimate of what 
the total monetary costs of this have been so far.
    Just for a basis of comparison, the 3-year cost of the 
survey to date is $1.6 million. So we have obviously had some 
additional costs as a consequence of the misrepresented data. I 
am guessing it will be a fraction of that. In addition, we will 
get you the amount of the investigators' costs as well.
    With regard to the Forest Service, let me clarify the 
record. We did not provide monetary merit bonuses to any of the 
employees that were involved. One person is retired, so that 
was not an issue with that person. The only awards that were 
given were a nonmonetary, that is to say, nonmoney award for a 
different project, under $200 in value, and that was awarded 
prior to the information about the lynx survey coming to the 
fore.
    Mr. Walden. OK.
    Mr. Rey. We have reviewed the projects that the three 
Forest Service biologists were involved in prior to the lynx 
survey, and we have reviewed the work that two of the three 
have been involved in since. The one that retired is obviously 
not any longer relevant in that respect.
    We did take them off of the lynx project. That was one of 
the measures that was taken once this came to light. Neither of 
the projects that they were involved in previously, nor their 
work in the projects that they have been involved in 
subsequently, lend themselves, on the basis of the specific 
activities to which they were assigned, to cause us to call 
into question the integrity of the overall project they were 
involved in.
    Mr. Walden. What about the issue of accountability?
    Mr. Rey. The issue of accountability is the subject of both 
the first investigation, as well as the second, and the key 
issue, as I see it, is the motivation of these individuals. The 
first investigation concluded that their motivation was, as it 
was described by GAO, simply to test the lab, although GAO was 
uncertain as to whether the evidence supported that conclusion. 
We have asked the IG to look more fully into that to satisfy 
ourselves that that was, in fact, their motivation or that 
there is no evidence to the contrary.
    The subsequent issue of whether the remedies that have been 
applied thus far are sufficient to hold them accountable for 
their actions will I think have to await the completion of the 
IG's work.
    Mr. Walden. I understand.
    Mr. Rey. Now, more broadly, since this issue has come to 
light, we have expanded the Code of Ethics developed by Forest 
Service researchers in 1998 to all Forest Service employees, 
and contractors, and cooperators involved in research projects. 
These biologists were not researchers. They were field 
assistance providing some assistance to a research project.
    Under that Code of Ethics, as it would now be applied to 
all Forest Service employees involved in a research project, 
falsification of data would be something that would be 
responded to with a letter of reprimand or dismissal, even in 
the first instance, without regard to the motivation involved, 
and the rationale for applying that remedy is that credibility 
is easy to lose and hard to regain.
    Mr. Walden. Yes.
    Thank you, Mr. Chairman.
    Mr. Peterson. Thank you.
    So if the motivation is pure, it is OK to ignore the 
protocol?
    Mr. Rey. No, that is not the case. It is not a question of 
whether their motivation was pure or impure, the actions were 
wrong-headed and wrong.
    The question is was there maliciousness or conspiracy to 
expand the range of lynx habitat by these actions or was their 
motivation, as they said, a wrong-headed effort to test the 
voracity or the accuracy, I am sorry, of the lab results.
    Mr. Peterson. I don't buy that for a minute. I mean, that 
is a stretch, in my view.
    Mr. Rey. That seems to be a pretty widely held view, but at 
the same time, the difficulty in the lab results of the 
previous survey, not the one that you have just heard about, 
would provide at least some credence to the explanation that 
the failure to find positive results was something that these 
folks believed to be warranted a test.
    Now, having said that, that doesn't excuse the action. The 
action was wrong. The question is was there a motivation which 
increased, which by its necessity should increase the penalties 
that are meted out, and that is a question that is still on the 
table to be resolved by the OIG investigation.
    Mr. Peterson. Thank you. Mr. Rey, while you are still here, 
we share the interests in reviewing and streamlining the entire 
natural resource decisionmaking process. Will this general 
review include a look at the credibility and ethics within the 
Agency?
    Mr. Rey. The credibility of the Agency is something that is 
at issue here and is tied into any changes we make in our 
management processes. The question of Agency employee ethics is 
one that I think, for at least the time being, we have achieved 
a resolution to, and we are eager to hear from anyone who 
believes the Code of Ethic, which was implied to all Forest 
Service employees involved in research exercises, is adequate. 
We think it is a pretty strongly worded and tightly written 
Code of Ethics.
    Mr. Peterson. Thank you very much.
    Now I am going to switch to Mr. McKelvey. When do you 
expect to publish the final results?
    Mr. McKelvey. We have one more year of the survey. That 
will give us 3 years of data on most sites. There may be a few 
that we don't have 3 years on, but at that point, we will 
evaluate the results, including the results from the test 
areas, which are areas where we know there are lynx. Based on 
those results, we can determine the efficacy of the survey at 
finding lynx, where they are, and thereby evaluate the results 
where they do not find lynx, and we will publish at that time.
    Mr. Peterson. What do you think the total cost will be when 
this is finished?
    Mr. McKelvey. I believe the cost per year is about $700,000 
to run the survey nationwide, and that includes all costs, 
including in-kind contributions from the Forest.
    Mr. Peterson. So it will be in excess of $2 million.
    Mr. McKelvey. What?
    Mr. Peterson. In excess of $2 million.
    Mr. McKelvey. I believe so.
    Mr. Peterson. Mr. Mills, were you ever contacted by anyone 
regarding concerns about the protocols?
    Mr. Mills. No.
    Mr. Peterson. Were concerns brought to your attention that 
the information you presented was not the same as the Weaver 
study result?
    Mr. Mills. Nothing formally. I heard rumblings that, wow, 
you got different results from the Weaver result, but I never 
got any formal, ``This is a concern. Please tell me more.''
    Mr. Peterson. Thank you.
    Mr. Franklin, in your opinion, since Dr. Weaver's 1999 data 
has proven unverifiable, do you think that the Fish and 
Wildlife Service should take another look at the March rule on 
developing a Canadian lynx habitat?
    Mr. Franklin. I am not sure there is justification for 
reevaluating whether the Canada lynx habitat--no, I can't 
really make that statement here.
    Mr. Peterson. Thank you very much.
    I want to thank the panel, and I want to thank the former 
panels.
    I thank the witnesses on the third panel for their insights 
and the members for their questions. The members of the 
Committee may have some additional questions for the witnesses, 
and we ask you to respond to those in writing. The hearing 
record will be held open for 10 days for those responses.
    If there is no further business before the Committee, I 
will thank the members of the Committee and our witnesses, and 
this meeting does stand adjourned.
    [Whereupon, at 1:42 p.m., the Committee was adjourned.]

                                   - 

</pre></body></html>
